<html>
<title> - HEARING ON GRAZING REDUCTIONS AND OTHER ISSUES ON BLM LANDS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
      HEARING ON GRAZING REDUCTIONS AND OTHER ISSUES ON BLM LANDS

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                   SEPTEMBER 30, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-52

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-299 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
           Todd Hull and P. Daniel Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 30, 1997..................................     1

Statements of Members:
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho, prepared statement of......................    12
        Additional material submitted by.........................   145

Statements of witnesses:
    Atkin, Brent, President, Public Lands Council................    25
        Prepared statement of....................................    49
    Bruton, Wesley Neil, Rancher, New Mexico.....................    35
        Prepared statement of....................................    51
    Flake, Ray, Lincoln County Commissioner, State of Nevada.....    21
        Prepared statement of....................................    59
    Gibson, Dr. Chad C., Wilder, Idaho, prepared statement of....    13
    Hunt, Frances, Director, BLM Programs, The Wilderness Society    45
        Prepared statement of....................................   125
    Loper, Dick, Consultant, Wyoming.............................    33
        Prepared statement of....................................    80
    Menges, Jeff, Chairman, Federal Lands Committee, National 
      Cattlemen's Beef Association...............................    23
    Moyer, Steven, Director of Government Affairs, Trout 
      Unlimited..................................................    43
        Prepared statement of....................................   117
    Sharpe, Maitland, Assistant Director of Renewable Resources 
      and Planning, Bureau of Land Management....................     2
        Prepared statement of....................................    53
    Smith, Allen E., Rancher, Utah...............................    38
        Prepared statement of....................................    95
    Brown, James L., Manager, Preston Nutter Ranch, prepared 
      statement of...............................................   100


      HEARING ON GRAZING REDUCTIONS AND OTHER ISSUES ON BLM LANDS

                              ----------                              


                      TUESDAY, SEPTEMBER 30, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 1334, Longworth House Office Building, Hon. James V. 
Hansen [chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Hansen. The Committee will come to order.
    Good morning, and welcome to the oversight hearing today 
which will address grazing issues on Federal lands managed by 
the Bureau of Land Management. The BLM oversees the majority of 
Federal lands used for livestock grazing. This land area 
comprises approximately 175 million acres, a significant piece 
of real estate in the West.
    The grazing of livestock, especially cattle grazing, has 
been an important part of our heritage, cultural, and 
development of the western United States. In fact, most people, 
if asked to picture western America, would conjure up visions 
of cowboys on a cattle drive. Cattle grazing embodies the very 
personification of what the West is. However, as we will hear 
from much of our testimony today, this part of our heritage may 
be in jeopardy of quickly becoming extinct.
    In the last few years, nearly every state in the West has 
experienced reductions, sometimes severe reductions, in AUMs or 
Animal Unit Months, along with the actual use of livestock. In 
fact, according to the Department of Interior statistics, from 
1979 through 1996, AUMs authorized by the BLM have been reduced 
by almost 2 million, nearly one-fifth of the total AUMs for 
those years. Many factors are responsible for these cutbacks 
and include BLM interpretations of law and regulation, a lack 
of monitoring, conflicts with other wildlife species, and 
mandatory compliance by the BLM of other laws like the 
Endangered Species Act. Unfortunately for the permittees, these 
reductions have been, in many instances, damaging and even 
devastating to their livestock grazing operations.
    The oversight hearing today is intended to fully explore 
the reasons why AUM and actual use of livestock numbers have 
been reduced across the West. Several permittees have been 
severely affected and have either had to go out of the ranching 
business or forced them to seriously contemplate that decision. 
This hearing is also intended to find solution and remedies to 
livestock grazing problems, both for the permittee and for the 
BLM.
    I want to add that the hearing today is primarily focused 
on issues surrounding livestock reductions on BLM. It is not a 
hearing on the merits of H.R. 2493, a bill introduced by our 
colleague, Congressman Bob Smith. Testimony given today which 
directs itself toward H.R. 2493 is not compatible with, and not 
really appropriate for, the purposes of this hearing.
    I want to welcome our witnesses here today. We will hear 
from Mr. Maitland Sharpe, Assistant Director of Renewable 
Resources and Planning in the BLM. We will also hear from a 
number of affected livestock operators representing five 
different states in the West and we will mention those as we 
start going on here. We appreciate all of you being here. And, 
Mr. Sharpe, we're grateful for your presence and you have the 
floor.

 STATEMENT OF MAITLAND SHARPE, ASSISTANT DIRECTOR OF RENEWABLE 
       RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT

    Mr. Sharpe. Thank you, Mr. Chairman. Mr. Chairman, members 
of the Subcommittee, I'm pleased to have the opportunity to be 
here today to discuss the Bureau of Land Management's range 
management program. I would like to address some of the 
concerns that the Committee has raised with respect to 
reductions in authorized grazing use on lands that BLM manages.
    As you know, the invitation letter for this hearing 
indicated that the Subcommittee was interested in grazing 
reductions on BLM-managed public lands. Twenty years ago, BLM 
authorized approximately 10.8 million Animal Unit Months, AUMs, 
of forage use to approximately 20,600 lessees or permittees. In 
1991 that figure had decreased to slightly over 9.6 million 
AUMs used by 19,482 lessees or permittees, and by 1996 that 
number was up to about 9.75 million AUMs and the number of 
lessees or permittees had declined further to 18,800. I 
attached a chart to my testimony that shows a year-by-year 
breakout of this information from 1977, 20 years ago, to the 
present.
    A review of our grazing records reveals that overall 
restrictions having significant negative impacts on livestock 
operations are, we believe, the exception. Terms and conditions 
for grazing livestock on an allotment are designed, whenever 
possible, to strike a balance between public expectations of 
more rapid improvements to resource conditions, on the one 
hand, and, on the other hand, the needs of permittees to have 
access to adequate amounts of forage. There have been site-
specific reductions or restrictions that have been put in place 
to better manage rangeland resources and to restore the 
productivity of our public rangelands. The BLM is required to 
protect the public lands from degradation and seek to improve 
the condition of the range, while at the same time managing 
those lands for a full range of uses, including livestock 
grazing.
    There is no single reason for the gradual reductions in 
AUMs that has occurred during the past 20 years. As you noted, 
the reasons are many, including land lost to grazing through 
exchange or disposal of lands, reductions for diminished forage 
supply or dimin-

ished carrying capacity, adjustments for riparian area 
improvements, adjustments which are usually temporary and 
restored after the riparian areas recover, and reductions in 
order to protect threatened or endangered species. Also, quite 
significantly, there are fluctuations of a temporary nature due 
to drought or wildfire emergencies.
    Let me give you a couple of examples. The recent Delaware 
and Rio Bonito land exchanges in southeastern New Mexico 
demonstrate the effect of land exchanges on the available 
number of AUMs. Through this particular exchange, BLM acquired 
important habitat along the Delaware and Rio Bonito Rivers that 
contains important biological resources and offers enhanced 
public-access opportunities. As a result of the exchange, about 
20,000 AUMs went into private ownership. So, those are no 
longer counted as AUMs on public land in New Mexico, although 
they're still available for grazing. An example of AUM 
reductions in order to protect the habitat of endangered 
species is the BLM's management actions to protect the 
threatened desert tortoise. The BLM has had to impose seasonal 
restrictions on grazing on a number of allotments in northern 
Arizona, southern Utah, Nevada, and the desert area of 
California because it was determined that livestock grazing had 
adverse impacts on desert tortoises during seasons of peak 
tortoise foraging activity.
    Additionally, there are occasional but rare reductions 
taken for willful, repeated violations of rules or terms and 
conditions of permits. Over the past 5 years, the BLM has had 
to impose such restrictions against about 46 operators. Those 
46 cases represent approximately two-tenths of 1 percent of our 
total operators. Most of our operators are, we recognize, good 
stewards and care deeply about the health of the land.
    BLM has also made reductions in some allotments where weed 
encroachment has reduced the forage supply. Approximately 8.5 
million acres of BLM-managed public lands have suffered 
invasion by noxious, exotic plants. These weeds continue to 
spread at more than 2,000 acres per day. These weed species 
have little or no value as livestock forage and contribute to 
the loss of carrying capacity.
    In addition to making reductions where necessary, BLM also 
restores forage to active use or increases AUMs as conditions 
allow. Between 1992 and 1996 about 140 operators received 
increases, totaling approximately 44,000 AUMs.
    In close consultation with permittees, lessees, and 
interested members of the public, the BLM will continue to 
strive to meet public expectations of improving the health of 
the public rangelands and continue to work to foster a healthy 
public land livestock industry. Livestock grazing remains a 
central component of multiple-use management and BLM is working 
to achieve a program that has broad public support for public 
land management that includes support for continued livestock 
grazing.
    We believe that one important way to encourage public 
support is to provide a mechanism for meaningful public 
involvement in rangeland decisions. Public involvement permits 
ranchers to hear the views of others and also helps non-
ranchers better understand ranchers and the benefits that 
ranching uses bring, such as open space, which is certainly an 
issue that increasingly resonates throughout the West with 
people of almost all backgrounds.
    Through the Resource Advisory Councils and the 
collaborative management approach of the 1995 regulations, BLM 
stakeholders are playing a larger role in the land management 
process. We now see people working together at state and local 
levels to find shared solutions to very real problems. Diverse 
interests are forging a common vision of what the public 
rangelands should look like and what the land can produce. They 
are finding ways to put old conflicts aside. The result will be 
a healthier, more productive rangeland and a more stable future 
for the public land livestock industry.
    The bottom line, in our view, is that the Bureau's grazing 
management program is working. We appreciate the Committee's 
continued interest in our range management program and I would 
be happy to answer any questions. I will be here throughout the 
hearing to hear what the other witnesses have to say and to 
listen to problems that may be occurring on the public lands so 
that we can respond to those and try to fix them. That 
concludes my testimony, Mr. Chairman.
    [The prepared statement of Mr. Sharpe may be found at end 
of hearing.]
    Mr. Hansen. Thank you. The gentleman from Minnesota.
    Mr. Vento. Well, thanks, Mr. Chairman for your--for the 
opportunity to be recognized. Mr. Sharpe, I'm interested in--
there's a suggestion in my colleague's, the Chairman's, opening 
statement that there are allotments that are not within BLM 
that are not now being permitted. And, can you give us some 
overview of what the numbers are?
    Mr. Sharpe. Congressman, I can't give you a number. We can 
find that and supply it for the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Vento. Well, I think it's important----
    Mr. Sharpe. The essential point here is the number of 
vacant allotments at any time on BLM lands is very, very small.
    Mr. Vento. Yes, I'm concerned. I mean, has there been any 
reassessment? I know that we have had a number of reports that 
we have done over the years, the last 7 or 8 years, which I'm 
certain that you, Mr. Sharpe, and others, as the Assistant 
Director, have taken a close look at, and they, of course, deal 
in glowing generalities all the time, and that's about all we 
have time for, I guess, today, is one of the issues had been 
the hot desert areas, the areas that have been extended. Has 
there been any thought about reframing some of those areas we 
found? For instance, an AUM, 2,500 of acres for a single, you 
know, AUM on these areas--has there been any thought of 
retreating from those areas? They're marginally profitable.
    Mr. Sharpe. The Bureau is not currently engaged, and has no 
plans to engage, in an exercise of reviewing the AUM allotments 
westside----
    Mr. Vento. Well----
    Mr. Sharpe. [continuing] to make new determinations as to 
their general suitability for grazing.
    Mr. Vento. Does the research councils--do they undertake 
that particular task themselves? I mean, at some particular 
point, there has to be some reframing of what are, you know, 
productive forages and what is not, I mean, in these areas. In 
terms of--when you put a cow, calf, or whatever AUMs you're 
putting on an allotment, it very often ends up being the 
dominant species. It obviously chooses out certain types of 
forages in terms of natural, and we get, of course, the many 
exotics that come in there, the sagebrush, the pinion-juniper-
type phenomena----
    Mr. Sharpe. I understand.
    Mr. Vento. [continuing] other types of problems that occur.
    Mr. Sharpe. Those decisions are being made quite properly, 
I think, at the local level through local land use planning 
efforts at the allotment level, focusing on the particular 
physical and biological conditions on a given allotment. The 
bulk of the reductions in permitted AUMs over the past years 
has stemmed from findings on the ground at the allotment level 
that the carrying capacity is not adequate to sustain the 
previous level of grazing use.
    Mr. Vento. Well, I know, but one of the ways that that's 
dealt with, just by expanding the number of acres that are 
covered--it doesn't always--I mean, one of the ways that that 
is addressed is by expanding the number of acres per AUM. It 
involves a lot more monitoring in terms of determining whether 
or not the permittee is, in fact, moving around the animals in 
a way that is consistent with the management of the allotment. 
I mean, you do reach a point of diminishing returns here, 
especially, isn't it--what has been the problem in terms of 
allocating resources and management and rangers, and so forth, 
to the monitoring of these types of sensitive areas?
    Mr. Sharpe. We have, as you know, limited resources 
available to us for monitoring. As for other purposes, we have 
allocated those resources very carefully, focusing them on the 
approximately 25 percent of the total number of allotments that 
have been placed by the Bureau in the ``I'' or ``Improved'' 
category. Those are allotments on which the grazing use is 
considered to be particularly sensitive, allotments on which 
physical and biological conditions may be less than we would 
desire and allotments on which there are notable conflicts 
among the various multiple uses. We believe that that's a 
rational allocation of limited monitoring capacity and we are 
monitoring those allotments on, essentially, an annual basis 
with interim monitoring taking place at, it varies, but roughly 
3- to 5-year intervals.
    Mr. Vento. Are any of the states still doing chaining 
activities?
    Mr. Sharpe. There is some chaining that has taken place on 
BLM lands in recent years, almost all of it, I believe, in 
connection with trying to rehabilitate rangelands after fires, 
after wildland fires. We've discovered that, in some areas, 
chaining is virtually necessary to bring the seed in proper 
contact with the soil bed, in order to get adequate 
regeneration of vegetation needed to protect the soil and 
provide soil stability, reduce erosion, and permit recovery of 
the productive capacity of the----
    Mr. Vento. What would you--what would be your sentence 
answer for me or brief answer with regards to riparian issues 
and BLM? Of course, as you know, that they have been scored, 
you know, in the last reports of GAO, some certain years ago 
now, in terms of having riparian areas that are in poor 
quality. And I guess that deals with this monitoring of these 
risk areas, I think, that are whatever the terminology that you 
use, but accurately depicting it, how would you respond to a 
question in terms of BLM's management of riparian areas these 
days?
    Mr. Sharpe. We are very proud of our response to the need 
to place additional emphasis on riparian areas. We feel that 
BLM has been a national leader in that regard. We have now 
assessed, monitored, if you will, 78 percent of the riparian 
miles in the lower 48. We have classified those into three 
categories and we are focusing our recovery efforts on the 
middle category, the streams that have been identified as 
``functioning at risk,'' simply because those are the streams 
that respond most quickly to management efforts and, obviously, 
from a strategic point of view, that's the most productive 
place to put our resources.
    Last year, 1996, we applied management to a little over 
1,600 miles of streams in that category, functioning at risk, 
which amounts to about 11 percent of the total stream miles in 
that category. But we could make more progress. We would like 
to. We're committed to doing that, and we are working at it 
very hard through every means. It is absolutely a top priority 
for the Bureau.
    Mr. Vento. One of the suggestions here is that there's been 
a reduction in the amount of AUMs, in terms of the western 
rangelands. Can you give the reason? Is that a weather-related 
phenomena or is that just reflective of environmental problems 
or a meteorological phenomena?
    Mr. Sharpe. Well, as I noted in my statement, it's a result 
of the interaction of a great many factors, some of them 
additive, some of them canceling each other out, all of them 
varying from year to year. It's very difficult and it would 
really be a mistake to try to pin this to any single factor. 
However, I can tell you that over the last 6-year period, the 
data that we have collected from the field indicates that some 
89 percent of the reductions, the AUMs placed in suspended use, 
have been attributed to carrying capacity, as opposed to 
drought or fire or endangered species or wildlife or other such 
factors. The reductions have been made in response to 
limitations on carrying capacity on the ground.
    Mr. Vento. Thanks, Mr. Chairman.
    Mr. Hansen. Thank you. Mr. Sharpe, maybe I'm missing 
something here, but I've been reading this put out--the Council 
for Agriculture, Science, and Technology put out a rather 
extensive report indicating that the rangeland has been 
improving rather dramatically in the last little while, 
regardless of all these factors. At the same time, the number 
of slaughter animals on the ranges has been going down. It 
seems kind of an inconsistency to me that, while the range is 
improving, the number of animals is going down. I'm sure you 
mentioned other factors to the gentleman from Minnesota but 
there must be something else. What am I missing?
    Mr. Sharpe. Well, I don't know for sure why the number of 
slaughter animals has been going down. I would point out that 
market conditions are also volatile, as we all recognize the 
market has been in a deep trough for the past several years. 
Market prices have been extremely low and, presumably, the 
number of animals on the rangelands, public and private, has 
reflected that over the past several years. I would expect 
that, as the market for beef picks up, that rangelands that are 
now less than fully stocked are likely to become more fully 
stocked. That's certainly one of the factors that needs to be 
considered.
    Mr. Hansen. I remember a few years ago reading a very 
exhaustive report that the managers of public land use grazing 
as a tool, as they use other tools. Chaining, for example, 
which I think has restored a lot of rangeland; contrary to 
popular belief, prescribed fires; thinning, all of those things 
which land managers, not environmentalists, not developers, but 
land managers say, something that's taken good care of it. 
Isn't it true that use of slaughter animals is used as a tool? 
In other words, keep down grasses, things such as that.
    Mr. Sharpe. Well, the use of livestock grazing by various 
classes certainly can be used as a tool in order to achieve 
particular resource objectives identified for a particular 
allotment or pasture area within an allotment. I think that for 
the largest part, livestock grazing on the public lands is 
primarily a commercial use, that the reason that the cattle are 
out there is primarily in order to make economic use of the 
forage that is available and in order to secure the benefits 
for individuals and ranchers and for society at large from 
making productive use of that forage. I would point out, at the 
same time, that sheep certainly are used from time to time very 
directly as a management tool, particularly for the effective 
control of leafy spurge and other weeds. In fact, in certain 
instances, we charge no fee for such use because the Bureau 
recognizes that that use is being entertained strictly for 
management purposes.
    Mr. Hansen. No, I think there's a basic philosophy that 
seems to permeate around here and in some places in America, 
that management versus non-management. For years, we've managed 
the forests. We've managed the public lands. I think it's 
interesting that some people now feel we shouldn't manage it. 
Out of that through 100 years or so, as history in my State of 
Utah shows, that the forests, the public lands, are in much 
better shape than the days the pioneers came to those valleys 
because people have managed it and they've used many tools--
cutting, when they had to; thinning, chaining, which, in my 
opinion, is a good management tool.
    And this report that I was referring to went on to talk 
about our friends to the North and Canada, who, at one time, 
cutoff animals on the public graze and later put them back on, 
even paying people from Montana to take stock across the border 
to keep the grasses down, so they wouldn't have fires in the 
fall in dry years. So, I look at that as somewhat as a 
management tool, and that you folks who are charged with use of 
the public land cannot go to the idea of just let Mother Nature 
do it. Mother Nature, in my opinion, I know that's speaking 
against deity almost, but she manages by wind, fire, 
earthquake, areas that I totally disagree with, and I think man 
has to be a good steward of the ground. I do feel, even though 
I'm very pro-grazing on the ground, I do feel that some 
ranchers have violated their privileges. I know personally I 
have been kicked off ground before, as a young man, and went 
back to the county recorder and found out that it was public 
ground. I went back to the rancher and he apologized, said, ``I 
didn't think you'd look it up.'' And I was also in the 
legislature at the time, and it kind of irritated me that some 
of these people feel that they're owners of the land when 
they're merely or only have one use. I hope all the ranchers 
are cautioning your people not to do that, because that really 
hurts your cause. And, of course, I can't say as I blame you. 
Somebody coming in and messing up an area but you mess it up to 
a certain extent, also, so I'd be a little careful there, if 
you would be.
    The gentleman from Arizona, Mr. Shadegg, is recognized for 
5 minutes.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Thank you, Mr. Sharpe, for being here. I'm sorry I missed 
the very first part of your testimony. Let me just begin with a 
question that you may have answered and I'm not sure I heard 
the answer clearly enough. Do you agree that the trends do, in 
fact, show that rangeland conditions are improving in the West?
    Mr. Sharpe. The data available to us for the entire sweep 
of this century certainly indicates that range conditions have 
gotten better over the last hundred years. In the 1970's, Thad 
Box, the distinguished range professor from Utah State,tried to 
assess the available data and concluded with the much-quoted 
observation that the rangelands were, then, in the best 
condition that they had been in in the twentieth century.
    Mr. Shadegg. At what time----
    Mr. Sharpe. I would not dispute that conclusion.
    Mr. Shadegg. How recent was that?
    Mr. Sharpe. That was in the mid-1970's. BLM data, gathered 
since then has shown a modest but continued improvement in 
range condition overall. And we're very proud of that. At the 
same time, I should point out that this does not apply evenly 
across all the public lands. There are areas, there are sites, 
there are allotments that don't reflect that general upward 
trend and the additional management steps that the Bureau has 
been taking in recent years to put in place more effective 
management, which sometimes involves reductions in livestock 
use, and often doesn't, is in response to the continuing need, 
and the continuing opportunity, to improve the productivity for 
the full range of uses of those areas that have been somewhat 
laggard in terms of this general pattern of recovery.
    Mr. Shadegg. I appreciate that. It seems to me, and I think 
the Chairman already alluded to it, stated in a rather blunt 
fashion, which is kind of my way to do things, some ranchers do 
a good job of managing the range they're entrusted with and 
some don't as good a job. Have you found--well, I guess two 
questions. One, do you have the ability now to identify which 
ones are doing a good job, and to either improve their 
management or deal with the fact that they aren't managing 
properly by perhaps reducing or taking away their allotment, as 
one question.
    And second, are the advisory councils, resource advisory 
councils, helping in the education on both sides? That is, of 
those who have the land, and of those who kind of want to 
manage it from some other venue, such as the cities or a 
particular environmental group with a concern about it.
    Mr. Sharpe. Taking your questions in reverse order, our 
experience to date shows that the resource advisory councils 
and the entire climate of collaborative management, of which 
the resource advisory councils are a salient part, have been 
very successful in terms of fostering those productive 
conversations from both perspectives. I believe that the most 
important thing we can do in order to provide for a stable 
future for the Western public lands livestock industry, is to 
continue to foster that kind of conversation. We need to 
improve the condition of the public rangelands and the riparian 
resources, including protecting endangered species and so forth 
and, further, to demonstrate to all of the parties who are 
interested in this, that, in fact, we are making progress and 
that the trend is up, and that the lands are getting healthier 
and that there's more there for everyone. I think it's that 
pattern, pursued and sustained over the years, that is going to 
put to rest the widely shared public illusion that these 
rangelands are in bad condition and getting worse and, by doing 
that, provide the foundation for a stable western livestock 
industry. And now I regret I've forgotten the first part of 
your question, if you----
    [Laughter.]
    Mr. Shadegg. That's all right; that answer, I think, 
adequately covered it. Let me just--because I'm going to run 
out of time here in a minute--there are many people in my 
district, which is an urban district in the West, who have 
become persuaded that grazing on public lands is simply an idea 
who's time has come and gone and that grazing is, in fact, bad 
for public lands, period. They'd like to see it completely 
gone. The responsible ranchers that I know in Arizona say, to 
the contrary, that the evidence is quite clear that, managed 
properly, grazing is actually very good for the land and, 
indeed, improves its condition. Would you agree with the latter 
sentiment and do you have, or does the Bureau have, studies 
which you could cite for my use to try to make that point with 
those who are taking the other view?
    Mr. Sharpe. I think that livestock use can benefit the 
land. You have to be specific as to what vegetation, what 
livestock use, the pattern of use, the precise situation. One 
of the difficulties in this entire business is that the truths 
are specific and the myths are general. And trying to----
    Mr. Shadegg. Well said.
    Mr. Sharpe. [continuing] get the two together, trying to 
bridge that gap is always difficult. That, specifically, is the 
genius of a collaborative approach. If we can get people with 
very different viewpoints, people who embrace very different 
myths or senses of the world, together looking, in detail, at 
the same piece of turf and learning to see what's there and 
understand the biological processes through the same set of 
lenses, then the disagreement, the perceived conflict, tends to 
dissolve.
    Mr. Shadegg. And the last part of the question was, can you 
provide me or are you aware of studies that the Bureau has 
underway that begin to make this case: that done properly, 
grazing, in fact, benefits the land?
    Mr. Sharpe. I am not aware of specific studies. We will 
certainly look into that, do a quick literature search, and 
provide the information for you.
    Mr. Shadegg. That would be very helpful.
    Mr. Sharpe. Be happy to do----
    Mr. Shadegg. Thank you, Mr. Chairman.
    [The information referred to follows:]
----------
    Mr. Sharpe submitted the following information:
    The Bureau of Land Management has not done any recent 
studies on the issue of the benefits of livestock grazing to 
the land, nor do we have any underway at this time.

    Mr. Hansen. Thank you. We'll now turn 5 minutes to Mr. Hill 
from Montana, followed by the Republican side by Chenoweth, 
Hefley, and Gilchrest. We'll also get to Mrs. Green on the 
Democratic side.
    Mr. Hill. Thank you, Mr. Chairman, and thank you, Mr. 
Sharpe.
    One of the issues, or at least when we hear complaints with 
regard to dramatic changes in land management decisions by the 
BLM, it often has to do with aspects of the Endangered Species 
Act. Would you agree with that?
    Mr. Sharpe. That certainly is one of the factors at work 
here.
    Mr. Hill. There are many who would want to reform the 
Endangered Species Act, including I think Mr. Babbitt has made 
some positive statements about putting greater emphasis on 
making land management decisions as part of recovery planning. 
In other words, one of the things that's occurring today is 
that you, evidently, are making arbitrary or rather short-term 
decisions with regard to land management's decisions involving 
leases. Or there really is no recovery plan. It's just a sense 
that there could be some threat to habitat. Do you think that 
those sorts of changes would be constructive in terms of 
helping you in cooperating with ranchers if we could put 
greater emphasis on the recovery plan before we made those land 
management decisions?
    Mr. Sharpe. I'm not in a position to speak to questions 
about potential amendments to revisions of the Endangered 
Species Act. That falls quite beyond my purview and beyond my 
expertise.
    Mr. Hill. But your----
    Mr. Sharpe. I would say that in terms of responding to our 
statutory and, I think, moral mandate to provide for protection 
for threatened and endangered species and their habitat, there 
are at least two important steps. The first step is to try to 
stabilize the situation when we have a situation of current 
jeopardy, so that we are certain that we are not further 
jeopardizing that species or that population. I think that the 
second step has to do with more comprehensive, systemic 
recovery planning. This often involves the development of 
recovery plans that involve public and private ownerships 
working together within a larger scheme designed to provide for 
the endangered species and its recovery in ways that make best 
use of the available resources and do impose the fewest 
constraints on other human uses. And, certainly, that's the 
direction in which society would want to move over the longer 
run.
    Mr. Hill. One of the complaints that I hear is that 
decisions are being made without good science and good data. In 
other words, the monitoring is done for a short period of time 
and then decisions are being made on the basis of relatively 
short or small amounts of data, I guess I would say. Do you 
have criteria within the agency with regard to how long 
monitoring ought to take place, what the quality of the data 
ought to be before you make significant changes in terms of 
AUMs or utilization?
    Mr. Sharpe. Monitoring within the Bureau is conducted in a 
variety of fashions, depending on the area, depending on the 
state and the resource conditions. In each case, it follows 
methodologies that have been developed by range scientists 
within the universities' faculties and adopted specifically by 
BLM and detailed within our internal technical references and 
other publications. This is not an activity that is conducted 
casually. It is firmly based in good science. There are ongoing 
arguments over the methodology to be used. There are a great 
many methodologies out there; each one has its adherent and no 
one methodology is appropriate to all circumstances and no one 
methodology meets with the full approval of all observers.
    But we are quite confident that our monitoring is conducted 
according to sound scientific principles, and the duration of 
monitoring, before decisions are made, is typically 5 to 10 
years. The state that has rendered the largest number of 
decisions in recent years is Nevada, and I'm told by our staff 
that in most of the cases the decisions are based on at least 
10 years of monitoring.
    Mr. Hill. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. We have a vote on, and I would like 
to acknowledge Mrs. Chenoweth. Before we go, we'll have time 
for her 5 minutes and then a vote, possibly two votes. I 
apologize to the witnesses. We don't have too much control on 
that so we'll stand in recess while we get through these votes 
and then we'll be back. Mrs. Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman, and I am glad 
you're holding this hearing and I wish I could be here for the 
entire hearing, but I have to chair another hearing, and so I 
appreciate being able to participate for just a short time. Mr. 
Sharpe, are you familiar with the BLM satellite network?
    Mr. Sharpe. I don't believe I am, by name.
    Mrs. Chenoweth. OK. On August 7, there was a broadcast from 
the U.S. Bureau of Land Management's National Training Center 
in Phoenix. Does that ring a bell?
    Mr. Sharpe. Yes.
    Mrs. Chenoweth. OK. They introduced the new Director, Mr. 
Shea, and he made mention of several interesting things that 
were on the satellite. And I know that you're here on behalf of 
Mr. Shea, and I wish he were here so I could ask him directly. 
But certain things he said I think we need to get on the record 
for his benefit to clarify. And I hope he didn't mean it as he 
apparently stated it. He stated that multiple use takes a back 
seat to ECA system management, and he went on to say, ``and we 
would add for our ranching and mining readers that vision does 
not include mere citizens having any established rights'' on 
these maps. I'm very disturbed about this because, certainly, 
the right to the allotments is an established right. It's not 
just a permitted right. And so I would very much appreciate 
hearing from Mr. Shea on that.
    Furthermore, Mr. Shea indicated that, on this satellite 
network, that he was skeptical of the states taking over duties 
from the BLM, saying that oftentimes the states are too lax in 
their enforcement responsibilities and in enforcing rules set 
up by the central government.
    And then the third thing was that Mr. Shea indicated, that 
if any elected officials gave any employee of the BLM any guff, 
he called it, he will not stand for that and that he wants to 
know right away and he will put a stop to it. I'd like to know 
what he means by ``guff,'' and I would like to hear from him on 
that because there will not be one minute that I will neglect 
my oversight duties on the responsibility given to me to 
oversee what the BLM is doing. I took a little umbrage at that, 
and so I would very much appreciate hearing from Mr. Shea on 
that, Mr. Sharpe.
    Mr. Sharpe. I'll be happy to communicate that to the 
Director.
    Mrs. Chenoweth. Thank you.
    Mr. Sharpe. I think there's been some difficulty in 
communication here. Those things do not sound like the Director 
that I think I know. I did not hear that broadcast myself.
    Mrs. Chenoweth. That's good and----
    Mr. Sharpe. So I can't speak to it directly, but I think 
that some additional conversation may make you feel a good deal 
better.
    Mrs. Chenoweth. And my door is very open to get to know him 
better because that's not a good start and I'm certain 
something must have been lacking in the communication.
    Mr. Chairman, I wonder if I could submit for the record my 
opening statement and also the testimony of Mr. Chad Gibson.
    Mr. Hansen. Without objection, all opening statement will 
be part of the record.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    I want to thank the Chairman for holding this hearing on an 
issue of great concern to me, the recent and disturbing trends 
we are seeing on BLM lands with regard to grazing allotments. A 
substantial portion of my district, the Owyhee and Bruneau 
resource areas, depend on their ability to use by permit and by 
right BLM lands for the grazing of their cattle. The future of 
their livelihoods, families, and communities are literally at 
stake with what is to me clearly an arbitrary reduction in 
grazing allotments.
    One of my constituents, Dr. Chad Gibson, was to testify 
today on this critical issue, but was unavoidably detained. 
However, he has offered his written testimony for the review of 
the Committee. Dr. Gibson has had over three decades experience 
studying the conditions of the range and how BLM policies 
affect those conditions. I know of no other more knowledgeable 
person in this issue than Dr. Gibson, and I strongly recommend 
the members of the Committee, and also the BLM, study and take 
into account Dr. Gibson's revealing observations. In fact, his 
comments center around how the lack of monitoring by the BLM--
one of the key issues we will be looking at in this hearing--
adversely impacts not only the agency's ability to accurately 
assess the conditions of the range, but also the trust that 
must exist between the agency and the people who have a stake 
in the use of the land.
    Mr. Chairman, monitoring is the essential element of good 
land management. If the BLM is not properly monitoring the 
land, or they are not taking into account data collected by the 
county and other state agencies who monitor the land, then the 
agency is simply incapable of making good land management 
policy. It also means that the information that it does publish 
is incomplete, and thus incapacitates the ability for that 
agency to even conduct a legitimate public discussion.
    Mr. Chairman, this notion is very troubling, especially in 
light of the fact that the BLM is basing its reasoning for 
across the board reductions in grazing allotments on this 
incomplete or inaccurate data. It leads me to believe that the 
reasoning be-

hind the reduction of AUMs has little or nothing to do with 
science. Rather, it appears to be the result of a political 
agenda that has infiltrated the basic decision-making process 
of the BLM. Somehow, and tragically, over the past few years, 
officials within the BLM have become less of land managers, and 
more of people policers. Its way of managing the land is to cut 
humans, or citizens, out of the use of the land. This is not 
what Congress intended, and in my opinion, is an outright 
violation of established rights.
    Mr. Chairman, for the sake of the health of the land and of 
the people who depend on that land, we need to get to the 
bottom of this issue. I anticipate that this hearing will 
continue to shed light on these problems. It is my hope and 
goal that we take this issue out of the political advocacy 
realm and back into a scientific and lawful realm where it 
belongs. That is the message that this Administration needs to 
hear.

    [The prepared statement of Mr. Gibson follows:]

             Statement of Dr. Chad C. Gibson, Wilder, Idaho

Dear Chairman Hansen:
    Thank you for the opportunity to present this testimony to 
your Committee. I hope these comments will help you understand 
the impact of regulatory abuse on livestock grazing preference 
rights and the continued viability of public land ranches in 
Owyhee County, Idaho. I am sorry that I was unable to be 
present to answer questions. I would be happy to respond by 
telephone or in writing if you would like clarification or 
additional information.
    By way of introduction I am a County Extension Educator 
with the University of Idaho stationed in Owyhee County. I 
specialize in range and beef cattle management and public 
policy, working closely with the Owyhee County Commissioners, 
Land Use Planning Committee and the Owyhee Cattlemen's 
Association. My concern for the subject of your hearing comes 
from my work and my interest in ranch here in Idaho belonging 
to my mother. I was raised on a ranch and have remained active 
in the management of the home ranch since that time.
    Owyhee County Idaho has 250 cattlemen operating ranches 
over nearly five million acres. The Bureau of Land Management 
administers 74 percent of the surface area of the county and 
about 70 percent of the livestock in our county are dependent 
upon use of the public lands. Consequently, the County has a 
significant interest in the administration of those lands. I 
would like to focus my comments on a number of areas of 
regulatory abuse resulting in reductions in livestock grazing 
use on the public lands of Owyhee County. These areas include 
land use planning, faulty monitoring and junk science, 
arbitrary terms and conditions, coercion resulting from alleged 
violations, and a lack of meaningful Consultation, Cooperation 
and Coordination. I will also offer a suggestion for correcting 
some of these negative approaches to administration and 
management of the public lands.

Land Use Planning

    In November 1996 the BLM Owyhee Resource Area released a 
draft EIS for the Owyhee Resource Management Plan. It contained 
four alternatives for management. One alternative was to 
continue management under the existing 1981 Management 
Framework Plan. This is a standard practice for the no-action 
alternative and such alternatives are never given serious 
consideration. A second alternative (B) was developed by Owyhee 
County. This alternative was developed with emphasis on 
rangeland health and multiple use and was developed with input 
from an array of multiple users. This alternative was presented 
in the BLM's EIS in an extremely negative manner and was given 
a heavily biased and inaccurate negative evaluation of 
environmental consequences. It appears that the biased and 
inaccurate negative interpretation and analysis was intended to 
slant public opinion against the alternative. A third 
alternative (C) was developed by the BLM staff and was termed 
the staff preferred alternative. This alternative was presented 
in the most positive manner possible with biased and inaccurate 
positive evaluations of environmental consequences. Again the 
apparent intent was to sway public review in favor of this 
alternative. The fourth alternative (D) was proposed by the 
``desert group'' made up of environmental groups opposed to 
grazing. It also was presented in the EIS in a generally 
favorable manner.
    The BLM staff alternative (C) was chosen as the preferred 
alternative in the draft EIS. This alternative establishes 
initial stocking levels 35 percent below current 
authorizations. The document contained no justification for 
this proposal. The 35 percent reduction was arrived at by 
proposing to close all allotments, with riparian areas 
estimated to be in less than good condition, to grazing after 
July 15. The closure would not apply where approved and 
implemented grazing plans to address ri-

parian issues were in place. The actual reduction ranged from 
25 percent to 85 percent for the 40 affected allotments. When 
it takes 2 or 3 years to get clearance to install livestock 
management facilities, there is no possible way even one of the 
allotments could meet the ``approved and implemented management 
plan'' criteria. Even if an individual plan could be 
implemented in a timely manner, it would be impossible to 
complete all 40 of them in 2 years. Additionally the remoteness 
of many allotments and the roughness of the country would 
prohibit even turning cattle out if they would have to be 
gathered and taken off the allotment within a month and in some 
cases within 6 weeks. Since most of the turnout dates are 
within 2 to 6 weeks of the closure date the permittees would 
simply not be able to use the allotment, resulting in a 100 
percent reduction in use.
    This is an example of where the BLM knows full well the 
criteria in the preferred alternative could not be achieved and 
would result in significant economic harm to the affected 
ranches (small businesses). This action is proposed without 
regard to current condition and trend of riparian areas. Many 
of the streams involved have only 1978 inventory data and many 
more have very limited and mostly subjective estimates of 
current condition and trend. In many cases there is reliable 
data demonstrating significant improvement and upward trends on 
the affected stream and riparian segments. This blanket 
reduction approach was selected as the preferred alternative 
and the bureau rejected the Owyhee County proposal in 
Alternative C. Owyhee County proposed to develop site specific 
allotment management plans based on current and comprehensive 
monitoring data which would adequately consider the livestock 
use constraints encountered by permittees.
    While the planning process in not yet complete, the bias of 
the agency in trying to manipulate the public process in an 
effort to gain support for unjustified cuts in use is fully 
demonstrated in the planning process up to this point.
    This example also demonstrates regulatory abuse based on 
unreliable, cursory, heavily biased, and largely subjective 
monitoring, combined with junk science. Much of the monitoring 
data is old (1978), based on potentially biased observations 
of, often, irrelevant factors, and in some cases good 
information is improperly interpreted. The national riparian 
assessment team made up of the most knowledgeable people in the 
BLM, USFS and other Federal and State agencies completely 
discredits one size fits all management such as the July 15 
closure, utilization and stubble height standards. They 
advocate site specific management plans considering all of the 
climatic, soils, hydrologic, vegetation, upland landscape, and 
grazing use factors for each site. Such programs have 
demonstrated repeatedly that site specific management plans are 
effective. This is precisely the process proposed by Owyhee 
County that was totally rejected by the bureau. Contentions 
that seasonal closures are the only answer is simply junk 
science.

Inaccurate and Inappropriate Monitoring

    I have personally been involved in disputes over monitoring 
results and the application of those results toward reductions 
in grazing use. In two specific cases BLM personnel performed 
utilization studies and indicated to the permittee that 
livestock would have to be moved to the next pasture in the 
rotation. Moving early from one pasture means that more time 
will be spent in other units or that cattle will have to be 
taken off of an allotment early. Early removal results in a cut 
in livestock grazing use. Upon investigation of the first 
instance we were able to confirm with a different BLM staff 
member that the utilization estimates were of the magnitude of 
2.5 times the actual use which had been made. The BLM withdrew 
it's demand that livestock be moved out of the pasture in 
question. In the second case BLM staff agreed that the field 
studies of utilization were significantly higher than actual 
use and again withdrew a demand to move livestock.
    Often land management agencies are so choked with red tape 
and paper work that they resort to use or blanket performance 
standards (junk science) for making decisions instead of 
relying on appropriate monitoring information. Proper and 
useful monitoring takes time away from meeting the paper work 
and red tape demands typical of a bureaucracy. In many of these 
cases the paper work and red tape take precedent and the 
appropriate monitoring is not done. Misplaced priorities lead 
to inappropriate standards and increased subjective observation 
of often irrelevant parameters. In such situations, individual 
biases and prejudices form the basis for decisions because 
objective and meaningful data is no longer available. 
Regulatory abuse is most often a product of the inability of a 
bureaucracy to maintain their statutory function as their 
primary objective because the focus changes from specific 
results to fulfilling procedural and paperwork requirements. 
Regardless of the reason, regulatory abuse occurs on a daily 
basis and in the case of the Bureau of Land Management many of 
the abuses result in economic harm to permittees through 
unjustified reductions in grazing use.

Improper and unworkable terms and conditions on grazing permits 
or leases

    The new rangeland reform regulations allow an authorized 
officer, by decision, to place any term and condition on a 
grazing permit which he feels is appropriate. The new 
regulations also require a permittee to accept those terms and 
conditions or forfeit their grazing preference right. Unless a 
permittee is willing and financially able to initiate an 
enormously expensive request for stay of the decision, the 
regulations require that permittees live with the decision 
during the appeal process. In any case, regulatory abuse 
through imposition of punitive or unrealistic terms and 
conditions place extreme financial burdens on permittees.
    During 1996 the BLM Boise District re-issued term grazing 
permits to nearly all of the permittees in the district. In 
many instances the terms and conditions on those permits were 
impossible to achieve or were simply inappropriate. Many 
permits contained a term and condition for leaving a 4 inch 
stubble height at the end of the growing season on specified 
riparian areas. Some allotments operating under a rotational 
grazing system will without doubt violate this term and 
condition in the years riparian pastures are used late in the 
season. This term and condition was imposed on every permit in 
the Owyhee Resource Area where the identified stream segments 
occurred. Allotments with demonstrated high rates of 
improvement in riparian areas and allotments with stream 
segments where stubble height is clearly an inappropriate 
standard all had the same term and condition applied. The 
National Riparian Assessment Team of experts favor site 
specific management plans and reject exactly the blanket one 
size fits all kind of management resulting from this term and 
condition.
    Most term permits contained a requirement for obtaining a 
``trailing permit'' any time livestock are moved on public 
lands. There is no reference in the law to any kind of 
``trailing permit.'' A permittee could not move a sick animal 
to a different pasture or even back onto private land without 
first obtaining permission from BLM. Even moving strayed 
livestock from one allotment or pasture to their proper place 
of use requires prior BLM authorization under this term and 
condition.
    Another term and condition prohibits salting within one 
quarter mile of any riparian area or wetland. In some 
allotments one cannot find a location that meets this criteria.
    The term permits also contain a requirement that all 
grazing be in accordance with a grazing schematic showing each 
pasture and dates of planned use for the allotment. There have 
been many instances where the BLM has pursued alleged trespass 
actions against permittees when a few, or even one animal, is 
found in a pasture outside of the dates listed on the 
schematic, even though livestock are within the allotment. 
Alleged trespass actions are initiated regardless of the reason 
an animal is outside of the use area on the schematic. Gates 
are frequently encountered along public use roads passing 
through pastures. Such gates are often left open by passersby 
allowing livestock to stray into unplanned use areas. Fences in 
good repair at the beginning of a use period are frequently 
broken by wildlife activity and storm events, again allowing 
unplanned livestock movement. However, permittees often face 
alleged trespass prosecution regardless of the reason for 
livestock escaping the assigned use area and regardless of how 
much effort was made to prevent it.
    The new regulations allow an authorized officer to suspend 
in whole or in part a grazing preference for any violation of 
the terms and conditions of a grazing permit or lease. 
Arbitrarily placing terms and conditions on a permit or lease 
which the authorized officer knows cannot be met provides an 
avenue for regulatory abuse which is perfectly legal under 
rangeland reform regulations.

Resolution procedures for alleged violation of terms and 
conditions

    There are many instances where a violation of terms and 
conditions actions against a permittee is settled through 
agreement. Such agreements take on the appearance of extortion 
or blackmail. The fact that a permittee could in no way prevent 
the violation does not prevent settlement by agreement. One 
permittee was forced to give up an established Allotment 
Management Plan in favor of annual management decisions by BLM 
in order to avoid further action for an alleged violation. One 
permittee was asked to assume maintenance responsibility for a 
fence previously the responsibility of BLM. Another permittee 
was asked to build and maintain a new fence to avoid further 
action. Permittees are often asked to reduce or change grazing 
use in order to avoid further action. Since legal action to 
fight an accusation of violation is extremely expensive, 
permittees often take the only avenue they can afford by 
agreeing to a settlement. Arbitrary terms and conditions 
provide a legal vehicle for regulatory abuse through arbitrary 
resolution of alleged violations.

Fundamentals of rangeland health and grazing administration 
guidelines

    The BLM Owyhee Resource Area has just released their 
process for addressing rangeland health through the standards 
and guidelines procedures. The initial process is prioritizing 
allotments and the second procedure is determinations of 
whether an allotment is meeting or progressing toward meeting 
the standards and guidelines. In both cases the last step in 
the process is Consultation, Cooperation and Coordination. The 
next two procedures are the selection of appropriate action and 
implementation of selected actions. Neither of these procedures 
even include Consultation, Cooperation and Coordination. It is 
very apparent that the program for implementing the rangeland 
health standards and guidelines will not include CCC with the 
permittees who have investments in preference right, who have 
intermingled private lands and or state lease lands and who 
depend on use of the public land for the viability of their 
ranching operations. It hardly seems credible that the current 
governing Federal statutes support this kind of regulatory 
procedure.

Curbing regulatory abuse through restoration of accountability

    There are four primary administrative situations which lend 
themselves to regulatory abuse. They have been enhanced if not 
legalized by the new rangeland reform grazing regulations. (1) 
Inadequate or faulty range monitoring and use of junk science 
to support agenda driven decisions. (2) Authority to impose 
arbitrary terms and conditions on term grazing permits. (3) 
Accusations of violation of terms and conditions on grazing 
permits or leases must be disproved by the accused. (4) Legal 
recourse for bad decisions is limited to very expensive 
litigation.
    Most of these situations leading to regulatory abuse could 
be corrected simply by requiring that an agency or proponent of 
a rule or order assume the burden of proof (accountability). 
This would significantly reduce the use of inadequate 
monitoring information and junk science. It would insure that 
terms and conditions imposed on term grazing permits or leases 
are achievable and scientifically sound. It would insure that 
accusations of violation of terms and conditions would have a 
demonstrably reliable basis. And it would significantly reduce 
the cost of legal challenges to improper decisions. I believe 
the appropriate language was developed in 1996 in one of the 
versions of H.R. 1713 which failed to gain approval in the 
House. ``When a grazing decision is appealed to an 
administrative law judge, the burden of proof shall be on the 
proponent of the rule or order. The standard of proof shall be 
by a preponderance of evidence in the record as a whole.'' If 
this language were made statutory, the regulatory abuses to 
which permittees and lessees are frequently subjected would be 
significantly reduced.
    Please accept my sincere thanks for the opportunity to 
present these comments before your Committee.

    Mrs. Chenoweth. Thank you.
    Mr. Sharpe, in the Owyhee resource plan it is proposed that 
there be a 35 percent reduction below current authorizations, 
and in some cases the actual reduction was 85 percent. In your 
testimony, you contend that the cuts in the AUMs by the BLM 
have been negligible in their effects, and I'm concerned about 
that. I'd like for you and Mr. Shey to take a personal look at 
that because there's no way that our operators can operate on 
that kind of margin.
    And, furthermore, in the Owyhee RMP, I consulted with a 
national assessment team made up of people from the BLM, the 
Forest Service, and other Federal and state agencies who 
examined the data that the BLM utilized in this alternative. 
And they found that it was a staff model and that the data that 
was used to support the management changes was as old as 1978, 
and that doesn't give us a very good analysis of what the range 
conditions are today because the range conditions have 
continued to improve, even through our drought years. And so, I 
would very much appreciate your looking into that and maybe 
when I meet with you or Mr. Shey, we can go over that.
    And then, finally, Mr. Sharpe, and Mr. Chairman, Dr. Gibson 
in his testimony has asked some questions that I will not be 
able to, because my time is running out. And I just wonder if I 
can submit that to the Committee to ask the questions on behalf 
of me.
    Mr. Hansen. Without objection, we'll take that and send it 
to the Department for questions. Do you want to respond to 
that, Mr. Sharpe?
    [The information referred to may be found at end of 
hearing.]
    Mr. Sharpe. I'd like to respond, particularly on one point, 
very briefly. And that is, that we understand that restrictions 
on grazing use are imposed on particular places. They're not 
spread evenly across the West, and we understand that, as a 
result, individual operators, individual allotments may be 
seriously impacted by these adjustments. There is no one in the 
Bureau, certainly no one at the field level, who does not take 
those impacts very, very seriously. Area managers agonize, they 
stay awake nights, before making a decision that it is 
necessary to impose serious reductions on grazing use on an 
individual operator. Those are difficult decisions to make for 
very human reasons, and we don't do that lightly. We do 
understand that people are affected.
    Mr. Hansen. We're going to run out of time here, so I think 
we're going to have to go----
    Mrs. Chenoweth. Mr. Chairman, I, with your indulgence, I 
just want to add, though, that they are human decisions and 
humans make mistakes. But I would appreciate very much that 
they evaluate the range condition based on today's standards. 
Thank you.
    Mr. Hansen. Thank you. We'll stand in recess. We have one 
vote on right now; we may have another one, and I don't know 
what's going to happen. I apologize. It's above my pay grade to 
control the floor, so enjoy yourselves. We'll try to get back 
as soon as we can.
    [Recess.]
    Mr. Gilchrest. [presiding] The hearing will come to order. 
A vote is still going on, but I would assume that some other 
members will return here shortly, although the full Committee 
is having their hearing with Carol Browner, Bruce Babbitt, and 
Dan Glickman. So, that might have upstaged us, I'm not sure, 
although we still have Mr. Sharpe, which I think supersedes all 
those three people, and some cattlemen in the audience, I'm 
sure.
    [Laughter.]
    Mr. Gilchrest. And, to the cattlemen, I offer you some 
comfort, even though I'm from Maryland, I guess considered the 
East, and I'm in eastern Maryland, to boot. But I have a couple 
old horses so that'll balance some of this out.
    Mr. Sharpe, did you have a chance to look at, or are you in 
any way familiar with, the bill that came out of the Agricultue 
Committee dealing with grazing?
    Mr. Sharpe. I testified at a hearing that was held on that 
bill, although, because we had not received a copy of the bill 
prior to the hearing, my testimony was in the nature of 
background, in effect, on the Bureau's range management 
program, rather than testimony on the bill. Subsequent to that 
hearing, the Secretary of Interior, Secretary Babbitt, sent a 
letter to Chairman Smith in which he shared with the Chairman 
the Secretary's, the Department's view on and objections, 
concerns about, that draft legislation. I have a copy of that 
with me if you would like to have that. It's certainly part of 
the public record.
    Mr. Gilchrest. Could you, then, in the short time that we 
have, could you tell us some of your reservations or Mr. 
Babbitt's reservations to the bill as compared to the kind of 
management tools or reforms you now use?
    Mr. Sharpe. Well, most fundamentally, I think it's fair to 
say that the view of the Department and the view of the 
Secretary is that, as I noted in my testimony, that BLM's range 
management program is working. That it is not broken, it does 
not need to be fixed. We think that range management is 
proceeding extremely well across the West through the 
implementation of the 1995 regulations. We have created, as I 
noted, a system of resource advisory councils that covers the 
West to provide focus for state and local level input from the 
full array of interests concerned with public land management.
    Mr. Gilchrest. It----
    Mr. Sharpe. Commodity interests, recreationists, 
environmentalists, wildlife folks, Native Americans, state and 
local government, everyone's at the table; they're talking 
together; they're focused on the land locally----
    Mr. Gilchrest. So, with what you know about the bill, how 
would that change what's happening now?
    Mr. Sharpe. Well, the bill would change the structure of--
among other things--the resource advisory councils, so that 
they were advisory to both the Secretary of Agriculture and the 
Secretary of the Interior, covering the National Forest System 
as well as the lands managed by BLM.
    Mr. Gilchrest. So, that doesn't happen now?
    Mr. Sharpe. No, it does not. The resource advisory councils 
are unique to BLM at present.
    Mr. Gilchrest. Are there any resource----
    Mr. Sharpe. We think they are a very good idea, but we 
don't think that this is an appropriate time to, in effect, 
upset the apple cart.
    Mr. Gilchrest. Are there any resource advisory councils--I 
guess you just answered my question. In other words, there are 
no resource advisory councils as far as grazing is concerned 
for the Department of Agriculture?
    Mr. Sharpe. I believe that to be true.
    Mr. Gilchrest. And the resource advisory councils that you 
now have in place for BLM, in your judgment work, are working 
very well?
    Mr. Sharpe. Yes, sir.
    Mr. Gilchrest. Wouldn't they act as a positive example of 
how things could be done for the Department of Agriculture as 
well, and--well, I guess they would--if you're thinking they're 
working well now for BLM, they would probably work well for the 
Department of Agriculture.
    Mr. Sharpe. I think that they are a positive example. I 
think they provide a model from which other agencies could 
profit. However----
    Mr. Gilchrest. What would the----
    Mr. Sharpe. [continuing] in terms of the impact on BLM, we 
would hate to enter into a period of turmoil and uncertainty 
and change as a result of new legislation and the requirement 
to draft new regulations and, in the case of the resource 
advisory councils, a change in their makeup and their scope and 
their structure at the very time----
    Mr. Gilchrest. So is that----
    Mr. Sharpe. [continuing] when we have a new mechanism that 
is working----
    Mr. Gilchrest. So, you're saying the bill----
    Mr. Sharpe. [continuing] very effectively.
    Mr Gilchrest. [continuing] the bill would not reflect the 
mechanism that is now in place; it would change the resource 
advisory councils?
    Mr. Sharpe. As I understand the bill, it would 
substantially change the resource advisory councils because 
their scope would be different; an additional array of 
interests would be brought to the table, logically people whose 
primary interest is the National Forest system as opposed to 
the BLM public lands. There would undoubtedly be need for 
changes in the personnel who are the membership of the resource 
advisory councils. I'm afraid that there would be a serious 
loss of momentum for the resource advisory councils that we now 
have in place and we don't think that the business of managing 
the public lands can tolerate that sort of loss of current 
momentum.
    Mr Gilchrest. I guess I'll have to take a close look at 
what you do now and how it would be changed by this bill. Is 
there--could you--I just have one more question. Could you tell 
me something about the kind of grass that is grazed on now, 
whether it's on--well, I guess you can speak to BLM land, as 
opposed to grass that was grazed on by horses or indigenous 
species 300 years ago. And is there a difference as far as 
nutrient to the animal is concerned? Is there a difference 
between the indigenous grasses and non-indigenous grasses to 
the region as far as the soil is concerned, runoff is 
concerned, things like that?
    Mr. Sharpe. At some peril to veracity, I will venture a 
gross overgeneralization.
    Mr Gilchrest. Oh.
    [Laughter.]
    Mr. Sharpe. By and large, across the arid and semiarid 
lands that the Bureau manages in the West, the native 
vegetation is typically an array of native shrubs, sagebrush, 
for example, and interspersed bunch grasses. The species of 
grasses that provide much of the forage base currently are, by 
and large, the same species that were there hundreds of years 
ago in pre-Columbian time, if you will, and for the reason that 
they are the species that have evolved on those sites under 
those climatic conditions and are best adapted to those sites. 
They are, by and large, perennial bunch grasses. Again, across 
the West, at the risk of overgeneralization, with the influence 
of European man's use of these lands, there has been, on a 
great many sites, a loss of--a degradation of the quality of 
the rangeland involving typically a loss of the perennial 
grasses and their replacement by annuals, and their 
replacement, furthermore, by a variety of shrub and woody 
species--pinon juniper over a great deal of the hotter portion 
of the West, for example. Those species are, by and large, not 
as effective at holding the soil in place, providing for 
capture and rainfall and infiltration. Erosion tends to go up 
and total productivity for livestock use or for wildlife tends 
to go down. The exercise that the Bureau's managers are engaged 
in, in terms of trying to adapt management in order to help 
restore the full productive capacity, or something closer to 
the full potential productive capacity at these rangelands, is 
very largely a process of trying to reverse that trend away 
from perennials and toward annuals and woody species.
    Mr Gilchrest. Is that being successful?
    Mr. Sharpe. Slowly. It is a slow process. That's one of the 
fundamental points that we Easterners often have trouble 
grasping about these lands.
    Mr Gilchrest. Are you from Maryland?
    Mr. Sharpe. I'm from Virginia.
    Mr Gilchrest. Oh, Virginia.
    Mr. Sharpe. Virginia, originally.
    Mr Gilchrest. But it's the----
    Mr. Sharpe. These are arid and semiarid systems. On the 
uplands, in particular, the vast majority of the acreage, the 
rate of recovery, the rate of change, tends to be very, very 
slow. So, the public expectations for rapid change, for a 
dramatic recovery, with a change in management, are, by and 
large, misplaced. Nature does not allow for that.
    Mr Gilchrest. Is it a specific policy of Interior to plant 
these native bunch grasses? And then, if it is, and you do 
that, how does that impact the present allotment system in 
areas that need the native grasses?
    Mr. Sharpe. We are not, by and large, in the business of 
planting rangelands extensively. However, we are in the 
business, frequently, of trying to reseed post-fire where there 
is not an adequate seed stock available in the soil or in the 
area to get sufficiently rapid reseeding of vegetation to 
protect the soil. The soil is the most fundamental element in 
the equation and we've got to make sure that the soil stays 
there.
    So, typically, post-fire, as in Utah this past year, for 
example, we may go in and seed either mechanically or aerially 
across vast expanses of acreage. In those cases, the policy is 
now to try to reseed with a mixture of native seeds and, in 
some cases, exotics, including primarily crested wheat grass, 
which regenerates very quickly and establishes itself very 
efficiently and is effective at holding the soil. But, we make 
sure now that the seed for native plants, including shrub 
species, is within the seed mix, so that over time, as 
competition takes place among the seeded species, the total mix 
of vegetation on the rangeland will be dominated by native 
species and much as it was before.
    Mr Gilchrest. Thank you. We, unfortunately, have another 
vote. And I think what I'll do--first of all, Mr. Sharpe, I 
want to thank for coming to testify before the Committee, and 
we appreciate the information that you've exchanged with us. I 
will run over--I think I'm going to run over and vote. You have 
another 10-minute break, but I'll come right back and then 
we'll start with Mr. Flake, Mr. Menges, and Mr. Atkin--Nevada, 
Arizona and Utah. And, hopefully, we'll have enough time to 
finish your testimony. Thank you very much. We'll recess for 10 
minutes.
    [Recess.]
    Mr. Hansen. [presiding] We have finished with panel one, 
Mr. Sharpe, and the second panel, and I apologize for keeping 
you folks waiting, but it's probably going to go on all day: 
Mr. Ray Flake, Nevada County Commissioner of Ely County, if 
you'd like to come up? Jeff Menges, Chairman of Federal Lands 
Committee, National Cattlemen's Beef Association, and Brett 
Atkins, President of Public Lands Council from St. George, 
Utah. Where's Brett? Send the Saint Bernards out to find him. 
Well, Brett Atkins will go third then. And, Mr. Flake, we 
appreciate you being here and we'll turn the time to you. I 
apologize, members will be coming in and out because it's just 
one of those days. So, if, Mr. Flake, you go right ahead.

 STATEMENT OF RAY FLAKE, LINCOLN COUNTY COMMISSIONER, STATE OF 
                             NEVADA

    Mr. Flake.. Thank you, Mr. Chairman. Mr. Chairman, members 
of the Committee, I'm here today representing People for the 
West, as well as Lincoln County Commission.
    Our organization, the People for the West organization, 
advocates responsible, multiple use of public lands, balanced 
solutions to environmental issues, and protection of private 
property rights. I'm a lifetime rancher and I strive to be an 
active environmentalist. I like to say that I'm an active 
environmental, not an environmental activist. I appreciate the 
interest of this Subcommittee and the time spent to listen to 
our concerns.
    Lincoln County is 98.2 percent public land. As you can 
realize, it's a real struggle to provide services to citizens 
of a county in a large area with 1.8 percent of the land for a 
tax base. Public land grazing is of vital importance to us. 
Every AUM lost is not only a loss to the individual permittee, 
but a loss to the community as well. In the Ely BLM district, 
of which Lincoln County is a part, AUM numbers are down 30 
percent since 1980. This represents a loss in permit value of 
$3 million and an annual direct economic loss to the livestock 
sector of $1.9 million. When this is factored into the turnover 
of money, this represents an annual loss to the communities 
involved of nearly $4 million.
    In my testimony, I've outlined four areas of concerns and 
examples of AUM losses. No. 1, improper and incomplete range 
monitoring. BLM personnel are constantly changing. Monitoring 
methodologies are constantly changing and are not consistent 
from one district to the next. Overutilization of forage is 
frequently cited as a problem, but valid justification is not 
always provided. Regardless, reduction in cattle AUMs is the 
result. In my opinion, the problems found are often the result 
of improper livestock distribution and control and not 
overutilization. Distribution problems are best solved with 
water developments and more intensive management and not just 
by reducing numbers. Unfortunately, the policy seems to be just 
make cuts without attempting to solve the real problems.
    No. 2, the Desert Tortoise Recovery Plan. As a result of 
designation of critical habitat for the endangered--Nevada 
County Commissioner of Ely County--desert tortoise, many of the 
permittees in Southern Lincoln County and Northern Clark County 
have been so severely impacted as to nearly put them out of 
business by a full-force-and-effect decision issued by the BLM 
which removes livestock from the range from March 1 through 
June 15 each year, and has closed some allotments altogether. 
Currently, the BLM and the Callyanty Office is preparing a 
recovery plan that will close over 1,000 square miles in 
Lincoln County to a single-use desert tortoise habitat--all 
this based on flawed and inaccurate data.
    The recover plan affects 19 allotments, 25 permittees, over 
900,000 acres in 37,000 AUMs in Lincoln County. No scientific 
evidence has been given to prove that cows are harmful to the 
desert tortoise. In fact, studies show they seem to do better 
in the areas where cows are grazed.
    No. 3, the Wild Horse and Burro Act and its management and 
problems. The wild horse and burro numbers in Nevada have grown 
to such proportion as to cause serious degradation of the 
public lands in many areas. In these areas, the rancher has no 
choice but to reduce his cattle numbers to keep from causing 
and adding to the damage to the resource. These voluntary 
reductions would not be necessary if the BLM kept the wild 
horse population at the numbers they themselves have 
established. Frequently, even though wild horses and burros are 
the source of damage, only reductions in cattle AUMs are 
required. It's easier to write a letter to the permittee and 
tell him to remove cattle than it is to get horses off the 
range.
    Nevada is home to over 20,000, or 60 percent, of the 
Nation's wild horses, yet Nevada receives only about 20 percent 
of the wild horse and burro budget. Funding deficiencies are 
partly to blame for the BLM's lack of action but, even when 
ranchers volunteer to help the BLM solve this problem, their 
help is refused. The wild horse and burro program should be a 
quality program and not a quantity one.
    No. 4, probable AUM loss due to BLM acquisition of water 
rights. In Lincoln County, most water rights are tied to--most 
grazing rights are tied to water, rather than to private 
property, a piece of land as such. In Nevada, as well as other 
states, water rights can only be held in perpetuity if the user 
can continuously prove beneficial use. As a result of range 
reform, the BLM has applied for stock watering rights and some 
of these actions have been denied, and they've filed suit in 
Nevada for this reason. Why, after 50 years, without water 
rights does the BLM suddenly need them to manage public land? 
I'm also concerned with the BLM's attempts to gain ownership 
interest in privately held water rights.
    I'm concerned about the overall direction of the BLM, the 
continued erosion of AUMs; a little here and a little there 
adds up to be an enormous impact on the local communities. 
Overregulation and micromanagement handed down from Washington 
bureaucrats undermines the local BLM employees' ability to make 
sound decisions. We must double and redouble our efforts for 
local, community-based consensus-building land management. We 
challenge you, our elected representatives, to review BLM 
policies in order to remove unnecessary regulation and 
eliminate top-down micromanagement from Washington, DC and to 
insist that BLM policies respect state laws and our individual 
property rights. These policies must protect the local 
citizens' opportunity to provide for themselves and their 
families. The continued loss of AUMs harms ranchers and their 
families and the communities. It also harms the public land 
because it eliminates the ranchers' continual monitoring 
stewardship, improvements, protection, and maintenance of the 
range itself.
    There's been a lot of talk that public lands, ranchers, are 
welfare ranchers. But I tell you there is no such thing as a 
welfare rancher until he is literally out of business and 
standing in the welfare lines. If AUMs continue to be lost at 
the current rate, ranchers will be on welfare all right, but 
they won't be ranchers anymore. Thank you.
    [The statement of Mr. Flake may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Commissioner.
    Mr. Menges?

     STATEMENT OF MR. JEFF MENGES, CHAIRMAN, FEDERAL LANDS 
        COMMITTEE, NATIONAL CATTLEMEN'S BEEF ASSOCIATION

    Mr. Menges. Thank you, Mr. Chairman. My name's Jeff Menges. 
I'm chairman of the Federal Lands Committee for the National 
Cattlemen's Beef Association. My family and I currently have 
three BLM allotments and, although it is too soon to determine 
the impact of Secretary Babbitt's Rangeland Reform grazing 
regulations, I have found the BLM to be basically a reasonable 
agency to deal with. However, it is becoming increasingly 
difficult to ranch profitably on the public lands, and today I 
would like to articulate some of the problems public land 
ranchers face, and offer some possible solutions for those 
problems.
    Implementation of the Endangered Species Act by the U.S. 
Fish and Wildlife Service and the BLM is one major area of 
concern. We do not need two agencies duplicating administrative 
actions for the same purpose on the public lands. This is 
simply multiple layers of government working to accomplish the 
same result: protect and recover endangered plants and animals. 
These responsibilities could and should be administered by the 
land management agencies only. This would solve financial and 
administrative problems for both agencies.
    Secretary Babbitt's grazing regulations required 
development of Grazing Standards and Guidelines which were 
required to address restoring, maintaining, or enhancing 
habitats of endangered species. Arizona's Standards and 
Guidelines were developed with input from the Resource Advisory 
Council and signed by the Secretary of the Interior. However, 
in the Draft Biological Opinion, for the BLM Safford and Tucson 
Field Offices in southeast Arizona, implementation of the 
Standards and Guidelines will be overridden by the terms and 
conditions in the Biological Opinion.
    Our Smuggler Peak allotment is just one example. Since 
implementation of a winter grazing program on the Gila River 
pasture on the allotment in 1990, the riparian area in the 
pasture has been determined to be in ``proper functioning 
condition.'' This area will easily meet all requirements of the 
Standards and Guides. However, implementation of the terms and 
conditions of the Draft Biological Opinion will require 
complete removal of cattle from the riparian areas on my 
allotment and on 11 additional allotments. It further requires 
suspension of grazing on nine allotments, all to avoid habitat 
modification of habitat for pygmy owls.
    Pygmy owls do not exist on any of these 21 allotments. It 
is not occupied habitat, nor has it been designated as critical 
habitat; yet, modification of this potential habitat for pygmy 
owls will be considered take. The resulting effect to the 21 
permittees will be financially devastating as well as being 
contradictory to the Standards and Guidelines.
    It is difficult to imagine any area that could not be 
considered potential habitat for some species that is listed, 
or may be listed, as endangered. The U.S. Fish and Wildlife 
Service needs more avenues for local input. Expanding the BLM 
Resource Advisory Councils to include recommendations to the 
Fish and Wildlife Service should be considered.
    The Standards and Guides require allotment evaluations. 
This will require accurate monitoring. In recent years, 
monitoring has been a low priority item that has not withstood 
the budget cuts. We believe that vegetation monitoring is very 
important and should be a high priority. We recommend making 
monitoring a line-item so that money that is appropriated for 
this purpose, will have to be spent accordingly.
    Another major area of concern is the lack of accountability 
by state wildlife agencies for the impacts their actions have 
on the Federal lands. The number of elk on public lands have 
increased over 1,000 percent since 1960. There are also 
substantial increases for other big game species. Much of this 
increase can be attributed to livestock management and 
industry-initiated programs like the screwworm eradication 
effort, which have benefited wildlife as well as livestock. The 
result of these additional grazing wildlife has been reduction 
in available AUMs for livestock, without compensation to the 
permittees who pay for the use of the forage.
    Some states provide depredation permits to compensate 
ranchers for loss of forage on private land. We would support 
expanding that system to include other lands. My suggestion is 
that state wildlife agencies should enter into MOUs with 
Federal agencies regarding resource outcomes. Local experts 
should be involved in determining the outcomes. They should 
also be held to strict levels of accountability, as Federal 
grazing permittees are for range condition and trend and for 
mitigating damage done to permittees, either in terms of 
private values diminished or private penalties imposed on 
permittees for failure to abide by his or her permit terms and 
conditions as a result of state wildlife agencies' action or 
inaction.
    Temporary issuance of some type of permittee-owned hunting 
permits, to compensate the permittee for their economic loss 
could be an option. Some ways to achieve compliance from state 
wildlife agencies might include suspension of some portion of 
transfer payments from Federal Government to state wildlife 
agencies and making availability of Federal funds to state 
wildlife agencies contingent on compliance. Thank you.
    [The prepared statement of Mr. Menges may be found at end 
of hearing.]
    Mr. Hansen. Thank you. I have an unanimous request, Mr. Bob 
Smith, to enter his statement as part of the record. Is there 
objection?
    Hearing none, so ordered.
    [The prepared statement of Mr. Bob Smith may be found at 
end of hearing.]
    Mr. Hansen. Mr. Atkins, the gentleman from St. George, 
Utah, I turn the time to you.

 STATEMENT OF MR. BRENT ATKIN, PRESIDENT, PUBLIC LANDS COUNCIL

    Mr. Atkin. Thank you, Mr. Chairman, for the chance to 
testify today. I would like to talk today about some of the 
issues facing Federal lands ranchers with BLM allotments today 
that have arisen as a result of agency application of the Clean 
Water Act, the Clean Air Act, and the National Historic 
Preservation Act. These laws were well-intentioned by Congress, 
but regulatory agencies have converted the mandates from these 
laws into some rather heavy regulatory burdens in situations 
where Congress never imagined that these laws would be used.
    Earlier this year when grazing legislation was being 
considered by this Subcommittee, I had the opportunity to be 
out here with my son, T.J. You may remember that, Mr. Chairman. 
One day when we were in your office talking with you, T.J., who 
was 10 years old at the time, asked you, ``Congressman Hansen, 
what is the future of grazing livestock on public lands?'' Your 
answer was, ``I don't know.'' And I'm sure that was an honest 
and open answer. This is instability.
    As a rancher and as a father, I would like to be able to 
tell my children that they will be able to continue our 
family's tradition of ranching and feel good about it. As 
things are, I don't feel good about it because I don't know if 
it's true. After ranching for six generations, we have taken 
good care of the land, and in return, it has given us the 
ability to make a living doing what we love to do. It is really 
hard for me to remain optimistic about the future of my 
family's ranch today. This is really a shame because, 
regardless of the distorted half-truths and outright lies about 
the effects of grazing on public lands that some interest 
groups continue to propound, ranchers really are stewards of 
the land. Abusing the resource only hurts their ability to make 
a living.
    In my 25 years of dealing with the Bureau, with the BLM, I 
am finding that more and more frequently land management 
decisions are being made based on factors not at all related to 
sound land management practices. They are being caused by the 
applications of other laws. Ranchers are anxiously awaiting the 
appellate decision in a 1996 court case called Oregon Natural 
Desert Association v. Chief Jack Ward Thomas, better known as 
the Camp Creek Case. In that case, an Oregon Federal District 
Court judge held that pollution caused by cattle grazing 
constitutes a discharge into navigable waters under section 401 
of the Clean Water Act, and therefore, the Forest Service was 
required to get a state certification before issuing a grazing 
permit. The case is being considered by the Ninth Circuit.
    If the Ninth Circuit upholds the original decision, this 
will mean, in essence, that livestock grazing is equivalent to 
a water treatment plant for the purposes of section 401. It 
would also mean that the EPA would become yet another partner 
agency with BLM to help manage the livestock grazing. This, 
again, is instability.
    Likewise, the Clean Air Act is having adverse effects on 
proper land management. In some instances, burning of rangeland 
is necessary for proper management of some types of grasses and 
shrubs. The Department of the Interior and the U.S. Forest 
Service have adopted policies to improve the approval process 
of prescribed burns. The EPA is limiting these necessary 
management activities, citing clean air concerns. With the 
President recently announcing new particulate matter 
regulations, I can only guess that prescribed burning will 
become a thing of the past at some time. When that happens, the 
range conditions in areas where burning is appropriate will 
deteriorate, which will lead to reductions in AUMs available 
for grazing. This, again, is instability.
    The National Historic Preservation Act is basically being 
implemented on public lands through Memoranda of Agreement 
between the states and BLM or the Forest Service. But there are 
many inconsistencies between these agreements. In Montana, for 
instance, areas that have been grazed for the past 100 years 
really aren't being adversely affected by archaeological 
restrictions. In California, however, the MOU is resulting in 
restrictions on areas containing lithic scatter, basically 
pieces of stone leftover from making arrowheads, even though 
these areas have also been grazed for many years. Having 
different standards on Federal lands in different states does 
not add to stability.
    Considered one at a time, most of the negative effects from 
the laws that I have described could probably be manageable. 
However, these negative impacts are cumulative. By the time a 
rancher is facing requirements from three, four, five, or six 
different statutes, his ability to graze livestock on Federal 
land is uncertain, at best. The same situation is also faced by 
BLM. Agency employees spend more time consulting with other 
agencies on how to administer those agencies' laws and dealing 
with paperwork or appeals than they do actually doing the on-
the-ground monitoring to safeguard the resource.
    I know that it is unrealistic to think that these laws will 
ever be quickly changed to alleviate our problems. However, 
because most of the problems caused by these laws today are 
because of how the agencies are administering them, I don't 
think it would be unreasonable at all for the agencies to at 
least be able to work together in a manner that would allow 
both BLM and ranchers to do our jobs, rather than fill out 
papers and go to meetings. If the goal of BLM and ranchers is 
to protect, preserve, and improve the resource, which I think 
it is, then this kind of change is certainly needed.
    Once again, thank you for the opportunity to be here today.
    [The prepared statement of Mr. Atkin may be found at end of 
hearing.]
    Mr. Hansen. Thank you. I get the impression you would 
rather be a rancher than fill out papers and go to meetings, is 
that right?
    Mr. Atkin. That's exactly right.
    Mr. Hansen. How often do you see BLM fellows out on the 
ground?
    Mr. Atkin. Well, if I make an appointment to go with them, 
I'll see them, but on a normal year we probably won't see our 
range con. maybe but once or twice throughout the whole year. 
Generally, that needs to be a--we line up appointment to go 
look at some----
    Mr. Hansen. So, maybe once or twice a year they come out to 
monitor things?
    Mr. Atkin. They're probably out there a little more--as far 
as our range con., I'm sure he's out there a little bit more 
than that. But, as far as us seeing him, actually I've only 
seen him--I've only visited with him once in the last 2 or 3 
years. My dad's, I think, seen him a couple of times. He's a 
good range con., too.
    Mr. Hansen. What affect has the environmental community had 
on your ranch, your ranching process?
    Mr. Atkin. Specifically, ours, in our operation, on our 
individual basis, probably the biggest effect that they've had 
right now is our headquarters is right on a--kind of the main 
road coming out there. And, instead of getting good decisions 
of land management, now the BLM, through pressure from the 
environmental community, wants to manage that main valley where 
our ranch headquarters is by perception, rather than if the 
public--and especially the environmental community doesn't 
perceive that it looks good, then they want us to move our 
cattle. It's had a upward trend for years. We've had the goal 
to help another species of grass come into there. There's more 
of that grass now than there ever was before, but yet, we've 
had a dry year or two and if it doesn't--isn't perceived by the 
public to look good, then they won't--that's how they want to 
manage that valley.
    Mr. Hansen. Mr. Flake, I was a little disturbed about your 
comment where you said something about, if I got this right, 
that help from ranchers is always refused by the BLM for the 
wild horse and burro program. Can you elaborate on that?
    Mr. Flake.. Yes, sir. If I could, thank you, by an example. 
Last year when we had a drought in our area and we were--it was 
determined to gather a lot of wild horses. And the cost, of 
course, of gathering these horses is very great, very large 
amount. In our area, I talked to them about the horses that 
needed to be gathered and they said that there was a limitation 
on finances. And I said, in our area, in our particular range, 
there's an area there where you can gather horses and have to 
drive them for 12 miles with a helicopter to get them out to 
where you can corral them and load them. I said, let's don't do 
it; let's just wait. They'll all come over on this side the 
hill and I can water trap them over here. And if you would give 
me permission, I would water trap these horses and tell you 
when I had them in.
    And I was told--it was told me that that contractor is paid 
a certain amount for gathering these horses and we don't care 
how much is costs him to gather them; he's paid so much to get 
them out. I said, you don't understand me. I would like to see 
more horses gathered and I'm willing to make a sacrifice and I 
would make the effort to water trap those horses myself and 
call you and tell you they're in.
    The reply was, well, we have to have a load before we can 
haul them to the holding facilities.
    I said, with your permission, I'd take them to my ranch and 
hold them with hay until I had a semi-load for you to take out.
    And they said, well, we could never do that because the 
horse groups would not agree to it. Later, as I visited with 
the horse groups, they said that water trapping would be a way 
they would like to see horses gathered.
    I would like to see more effort in that area, but I'm 
willing to make the sacrifice also. I realize there's budget 
constraints, but I'm willing to help. But you can't help where 
it's not----
    Mr. Hansen. Commissioner, have you seen Representative Jim 
Gibbons' bill on wild horse and perils?
    Mr. Flake.. I know of it some, but I haven't studied it any 
great deal. Sorry.
    Mr. Hansen. He wants to restrict the number of horses in 
each state to one herd of--I can't remember the amount of 
animals--to be watched very carefully by a veterinarian and 
hold it at one size because of the damage they do to riparian 
areas and areas such as that. You haven't looked at that in 
much detail yet?
    Mr. Flake.. I have not, no.
    Mr. Hansen. I would very appreciate hearing a comment from 
you if you would get a chance to look at it. If you'd let me 
know, I'd kind of like to know because we will probably be 
doing a hearing on that bill and I'd kind of like to know where 
the western folks, the environmentalists, the cattlemen, 
everybody, ATV folks are coming from on that issue.
    Let me ask Mr. Menges, you, in your testimony, talked about 
range allotment monitoring has been a very low priority of the 
BLM. Can you elaborate on that a little bit?
    Mr. Menges. Yes, sir. I've been on these allotments since 
1979. Until about 6 years ago, the BLM did trend monitoring and 
utilization monitoring nearly every year. But then it was cut 
out, as the budget crisis got more intense; and they're saying 
there's just not enough money to go around to do that. We liked 
the monitoring. We've always contended that the rangelands are 
getting better and that monitoring did, in fact, reflect that. 
But now we're not getting it, and so we're much more vulnerable 
to them coming by with a--coming out during a crisis.
    For example, last year there was a severe drought down in 
our area. The BLM was getting hundreds of letter from people, 
environmental groups, I think, probably saying that a lot of 
damage is occurring out there, and so the BLM came out and did 
one-time assessments and then asked the ranchers to remove 
livestock ultimately. If we would have had monitoring data for 
the previous years to reflect that the rangelands were 
improving; then we'd have been on a stronger leg to stand.
    Mr. Hansen. Thank you. I hope you folks realize the warfare 
going on on the floor right now. Some of our friends want 
campaign reform, and I understand another vote is almost 
imminent. So I'll turn to my friend from Maryland for any 
questions that he has and also hand him the gavel, and I will 
be back at the conclusion of your--if you just hold it in 
recess, I'll get back as soon as I can, OK?
    Mr. Menges. OK.
    Mr. Hansen. After your comments.
    Mr. Menges. OK.
    Mr. Hansen. Thank you, and then we'll go to the third 
panel. We won't be long, but we're going to have another one, 
and I'm sorry, but, as I say, I don't control what goes on over 
there in the House of--the bigshots.
    Mr. Gilchrest. [presiding] I don't have too many questions, 
but I understand the nature of bureaucracy and the nature of 
farming and, to the extent that I can, the nature of ranching 
and all of the environmental questions that come into play, 
especially over the last 10 years or so. People are learning 
more about the best management practices, learning more about 
discharges, soil erosion, native species, non-native species, 
problems with drought and things like that. So, it's my 
position, as far as this bill is concerned and this oversight 
hearing, is to learn as much as I can in a way that is 
beneficial to the ranchers and to the land. So, the question I 
have, basically, is: Can you graze on public land and do it in 
such a way--Mr. Atkin, you made a comment about the Clean Air 
Act and the Clean Water Act, and you have to get a discharge 
permit, if you want to graze in a certain area, because of soil 
erosion in the nearby stream. Can you graze, limit the grazing 
in such a way to stop sediment getting into nearby streams? 
Given there is no perfect solutions, but can you graze without 
negatively impacting a stream which is going to impact somebody 
downstream?
    Mr. Atkin. That question, for me, is a little bit unique 
because there is no running water in our--in our whole 
grazing----
    Mr. Gilchrest. Oh, that's interesting.
    Mr. Atkin. [continuing] vicinity. So, it's a little bit out 
of my area, but proper grazing can reduce erosion. It can 
actually stimulate growth of the grasses, which will reduce the 
erosion. In our area, the worst erosion places that we have are 
the places that are grazed the least, that have sagebrush and 
pinon juniper that have invaded that area, and that's the area 
that's been grazed the least and that's where those plants 
flourish the most. Mr. Vento referred earlier to something to 
the effect that overgrazing caused that. I think it's the 
reverse of that. And where we have the most erosion is where 
that takes place.
    I think if there was a way to increase the grazing and stir 
that ground and help--well, if you could actually light it 
afire and burn some of those off and then stimulate the ground 
by grazing, that you would actually decrease the erosion.
    Mr. Gilchrest. Mr. Menges, would the--you said that for a 
long time, while there was monitoring from the BLM, you had 
fewer problems than you do now. What did the BLM people do to 
make things better when they came out to monitor that? Without 
that monitoring, things seemed to be worse? Whether it's soil 
erosion, whether it's the juniper woody shrub, would you 
suggest that there be a directive or somehow more monitoring by 
BLM?
    Mr. Menges. Yes, sir. When the monitoring was occurring on 
an annual basis and the monitoring included rainfall data, 
vegetation data, then it was easy to establish the trends from 
year to year. You would get some ups and downs, but over the 
long period of time you were able to establish----
    Mr. Gilchrest. So, it was----
    Mr. Menges. [continuing] trends, which was basically an 
upward trend when you could look at it over that period of 
time.
    Mr. Gilchrest. It was a lot easier to manage that way 
instead of managing in what seems to be a periodic crisis 
situation?
    Mr. Menges. Well, we manage the same way now as we did 
then. It's just that with the monitoring data available to 
review and to make available to the public, we had that 
information and could show it to people that, you know, this is 
actually what is happening out on the ground. Since we haven't 
had that for 6 years----
    Mr. Atkin. Did----
    Mr. Menges. [continuing] then we're subject to, 
particularly in dry times, people coming out and making one-
time assessment and saying that country looks terrible.
    Mr. Atkin. Could I respond to that----
    Mr. Gilchrest. Mr. Atkin?
    Mr. Atkin. [continuing] Mr. Gilchrest? There's the old 
saying that people are generally down on what they're not up 
on. And the monitoring itself doesn't do anything as far as 
helping the resource, but it does let them know where they're 
at. And all that Mr. Menges is saying is then we knew where 
we're at. You know, by monitoring, we had a record of--and if 
we're doing something that we shouldn't do, you know, if we're 
affecting the resource in a negative way, we want to know that 
as soon as anybody does. But, where the monitoring has taken 
place and your trend is up, it's easy to get along with people. 
But if you don't know, then it's common to start thinking that 
something's wrong.
    Mr. Gilchrest. My district is predominantly agriculture--
soybeans, chicken, dairy, you name it. And we have Agriculture 
Extension offices where the Agriculture Extension agent goes 
out on--and every county has one and they have an assistant, so 
they are constantly not only monitoring and gathering data and 
helping with best management practices and nutrient management 
of the soil, and so on and so forth, but they constantly are in 
touch with, for example, in our State, the University of 
Maryland, the soil scientist, and the latest techniques and 
innovative methods of farming, to not only reduce soil erosion 
and reduce the amount of pesticide you use or herbicide or 
all--all that other stuff, but they also save the farmer money 
when they see how they can manage in a much more scientific 
method. Does the BLM--did the BLM monitoring program come out 
and, not only gather data, but also relayed information about 
how to improve the range and how to move the livestock from 
place to place, that kind of information? Is that forthcoming 
from BLM as a regular course of action?
    Mr. Menges. Is that directed toward----
    Mr. Gilchrest. I guess any three of the gentlemen can 
respond.
    Mr. Menges. I think it varies from operator to operator. 
Some operators are much more knowledgeable about range 
management practices and are much more up to date with the 
latest and they know their allotments and know what'll work and 
what won't, and it's just a matter of getting with--then, 
there's also range conservationists that work for the BLM that 
have that knowledge also. They keep up to date. Right now it's 
more of a riparian focus, whereas 10 years ago it was more of 
an upland focus. But I think it's just a matter of sitting down 
with your range conservationist and getting out on the land and 
determining what is the best management prescription for that 
area between the rancher----
    Mr. Gilchrest. Do you have easy access to the range 
conservationist?
    Mr. Menges. Well, that's diminishing over time. Right now 
our range conservationists are in the office doing NEPA 
compliance and endangered species consultation nearly 
constantly. We're just like Mr. Atkin; we see them only 
whenever we ask them and set up an appointment. Otherwise, we 
haven't seen much of our range con. in the last 5 years or so.
    Mr. Gilchrest. Yes, sir?
    Mr. Atkin. I'd like to respond to that, too. You asked if 
that helped, you know, if there is that help. I think that 
varies, like Jeff said, between your range conservationist and 
your permittees. Our ranch con. right now is--he's helpful, he 
understands range. The one we had before him, that range con. 
had a forestry degree and was no help at all when that. And so, 
it varies a lot.
    Mr. Gilchrest. Yes, sir?
    Mr. Flake.. I also have a good range con., but he's been 
off on other projects, as was mentioned here, and we don't see 
him that often. I never go out with him, but what I learned 
something. And hopefully it's the same as we have an exchange 
of information with each other as we're out there on the land. 
You know, you're going to think about it and do more and make 
more wise decisions out on the land than you are sitting in an 
office where you're not thinking about it. That's where to make 
the decisions, is out there where you're looking.
    Mr. Gilchrest. I think I would agree with you. Do you 
have--unfortunately, Mr. Hansen was right; we have another 
vote. Can you, in your perspectives, can you--is there a way to 
manage the land to retain the allotments on public land where 
you could reduce the amount of unwanted woody shrubs, have more 
native species that seem to be--would, I would assume, seem to 
be able to thrive on the harsh conditions that are out there, 
the drought conditions. What would be your recommendation? We 
have a bill that came from the Agriculture Committee that we're 
going to work on in this Committee. We have the Interior 
Department saying that these Resource Councils and their 
methods are beginning to work now.
    Could each of you give me one or two things that you could 
recommend to us as this legislation is developing that would be 
helpful for the ranchers? Mr. Atkin, you said you want--you've 
been ranching a long time; you want your children and your 
grandchildren to stay on the land. What are a couple of things 
that we could do to help this process and become more informed?
    Mr. Atkin. You say, what could you do?
    Mr. Gilchrest. We, as Members--we're going to develop the 
legislation here. What do you see as some of the priorities we 
should look at? Riparian problems, burning problems, prescribed 
burns, things like that? More money for the----
    Mr. Atkin. I come from a particularly dry area, so Jeff 
will be more of a specialist on riparian, but one of the areas 
that--in our operation, if we could burn some of that country 
that--the sagebrush and the pinon juniper have kind of started 
to dominate, the production off that land, and I think this 
would be a conservative estimate, would quadruple.
    Mr. Gilchrest. Can you burn that pinon juniper and then 
manage the land so it doesn't come back again?
    Mr. Atkin. It would take quite a long time before it would 
come back. I don't know whether I can guarantee you that it 
wouldn't come back, you know----
    Mr. Gilchrest. What caused it to come there in the first 
place?
    Mr. Atkin. Well, I don't know for sure. We were just in 
Yellowstone Park Saturday and they, the Federal agencies there, 
told us that lack of grazing is what stimulates sagebrush 
growth in that area. I know, in our country, when there's been 
quite a use change, they used to bring a lot of winter sheep 
herds into that country and winter those sheep herds in that 
area. And it was when my dad was a younger man and he seems to 
feel like the sagebrush was a lot less dominant then. Now, the 
sheep herds have all left that country and so that grazing 
quit. We use it in the summertime with cattle and it seems to 
be--the areas that we graze the least is where it has 
flourished the most.
    Mr. Gilchrest. Thank you. Mr. Menges?
    Mr. Menges. I believe that the invasion of pinion and 
juniper was primarily caused by fire suppression because there 
would be a wave of fires come through on a fairly regular basis 
that would take the little ones out. Prior to the time that the 
fires were being suppressed aggressively, well, I don't think 
that we saw near the invasion of those species.
    As far as the riparian and what can we do to enhance all 
those things, infiltration, endangered species, we have 
standards and guidelines that we just developed that address 
all those issues. We're mandated to graze in compliance with 
those standards and guidelines but, unfortunately, we don't get 
the chance to work with the Bureau who is the land management 
agency. The other agencies, administering the Clean Water Act, 
the Endangered Species Act, and other acts that Brent mentioned 
are really causing havoc with us. We're meeting the standards 
and guidelines. We're progressing toward the goals, but then 
we're getting lawsuits filed against us with regards to 
endangered species management and site-specific 
micromanagement-type of things that are making it very 
difficult for us to stay within the management plans that we've 
developed with the land management agency, the BLM.
    Mr. Gilchrest. Is this--is BLM--if you meet the standards 
and guidelines that are set up, I would assume you would also 
directly or indirectly meet the standards of the Clean Water 
Act and the Endangered Species Act?
    Mr. Menges. You're supposed to but the lawsuits that have 
been filed have mandated consultations and biological opinions 
and----
    Mr. Gilchrest. So, are the----
    Mr. Menges. So the biological opinion for my allotment, 
take, where it says we're meeting the habitat requirements 
described in the biological opinion and yet, for some reason, 
the Fish and Wildlife Service has come up with the idea that 
we're taking cactus ferruginous pygmy owls by grazing cattle in 
riparian----
    Mr. Gilchrest. Is this a problem between Federal agencies, 
then, to some extent?
    Mr. Menges. Absolutely.
    Mr. Gilchrest. The lawsuits are filed against BLM?
    Mr. Menges. The lawsuits are filed against the BLM, yes.
    Mr. Gilchrest. By private citizens? Fish and Wildlife 
through----
    Mr. Menges. Environmental groups.
    Mr. Gilchrest. I have to run before I miss this vote. Mr. 
Flake, do you have any comment?
    Mr. Flake.. Just shortly--that local decisionmaking will 
really help in trust between the rancher and the Bureau people 
and more freedom to do things locally. And I know it's public 
land and everyone should have an input, but decisions should be 
weighted toward those people that live there and understand and 
have lived there for generations and know that land when 
decisions on grazing are made.
    Mr. Gilchrest. Mr. Atkin has one more comment as I run out 
the door.
    Mr. Atkin. You ask things that you could do. In our 
particular area, there's one thing that's kind of concerning to 
me that you may be interested in. The fire budget for our BLM 
district is just--it's unlimited. They can spend any amount of 
money they want on fire. I have never seen a bad fire on our 
district, and when my dad was a little younger they just--they 
kind of deputized the livestock producers out there and said, 
if you see a lightning strike, go over and put it out, and if 
they went over and put it out, they paid them like dollars or 
something to do that. I don't know how high that fire budget 
has gotten but it's unlimited. They can spend almost whatever 
they want.
    Mr. Gilchrest. Thank you very----
    Mr. Atkin. That's kind of out of control.
    Mr. Gilchrest. Gentlemen, thank you very much. Welcome to 
the Nation's capitol. We'll stand in recess.
    Mr. Atkin. Thank you.
    [Recess.]
    Mr. Hansen. [presiding] Our third panel is Dick Loper from 
Wyoming, Wesley Neil Bruton from New Mexico and Mr. Allen E. 
Smith from Utah. If those folks would step up to the plate, I'd 
appreciate it.
    I think that's pronounced Bruton, is that right?
    Mr. Bruton. Yes, sir.
    Mr. Hansen. I apologize.
    Mr. Loper, we'll start with you, sir. What part of Wyoming 
are you from?

          STATEMENT OF DICK LOPER, CONSULTANT, WYOMING

    Mr. Loper. Lander, sir. We're in the west central part of 
the state.
    Good morning, Mr. Chairman--I guess it's afternoon now but 
anyway.
    [Laughter.]
    Mr. Loper. Thank you very much for the opportunity to 
testify here today. I'm Dick Loper, I live in west central 
Wyoming and I'm here today on behalf of the permittees in 
Wyoming represented by the Wyoming State Grazing Board Central 
Committee, and we have about 2,500 permittees that have section 
3 BLM grazing permits.
    Mr. Hansen. Mr. Loper, could you pull that microphone just 
a little closer to you, if you would please? Thank you.
    Mr. Loper. Thank you. I'd like to bring to the attention of 
this Committee an example of how public land AUMs are being 
reduced from the level that ranchers have been led to believe 
that they were have consistently available to them. In the 
early 1980's, the BLM policy on how to determine when changes 
in livestock AUMs available to ranches and wildlife were needed 
changed from a policy of reliance on one point in time 
inventories to a policy of reliance on a variety of studies 
over time. This secondary process that I'm talking about is 
called monitoring. This change in BLM policy was supported and 
still is, to my knowledge, by the range science community and 
the livestock industry, because monitoring is a much better way 
than an inventory procedure to determine if allotment 
objectives are being met over time.
    Range management is still 90 percent art, 10 percent 
science, at best. And adequate quality and quantity of 
monitoring data from a variety of sources on the rangeland 
ecosystems will provide the manager a data base from which to 
manage the land. If we don't have that variety of data, though, 
the task of range management becomes difficult, if not 
impossible.
    But for reasons most of us outside the BLM in this range 
profession don't seem to understand, the BLM policies over the 
last few years have encouraged and even allowed their 
decisionmakers to make decisions on a very limited amount of 
data, in some cases virtually no data at all. If we don't have 
a knowledge of whether or not a plant community is changing 
over time, and the annual studies, such as utilization, provide 
little more than a visual and cosmetic view of the rangelands, 
the levels of utilization being used as maximum limits allowed 
by some of these BLM proposals are not considered by the 
majority of the range science community to be use levels that 
would be normally detrimental to plant communities grazed under 
typical BLM grazing programs. As support for this statement, 
I've attached to this testimony the results of a symposium 
sponsored by the Society for Range Management last winter on 
this subject.
    I'd now like to provide some actual examples of the BLM 
livestock grazing plans that contain language that place 
utilization limits on livestock grazing programs without the 
support data to confirm that these limits do, in fact, have a 
detrimental environmental impact on the public land. For 
example, Allotment 1803 in the Lander BLM Resource Area, a 
quote: They want to improve the distribution of livestock 
grazing by managing the utilization of perennial grasses on 
uplands and ephemeral drainages at 35 percent of the forage or 
less in all sub-units of the allotment by the year 2002. The 
plan goes on to say they want to decrease utilization of 
perennial grasses at the end of the grazing year from a 
moderate use today of 41 to 60 percent, to a light use in the 
future of 21 to 40 percent by the year 1999.
    In the Cumberland allotment in the western part of Wyoming 
and in the Smithsfork allotment, the annual operating plans, 
the last 2 years they've had this statement in it: When a 60 
percent seasonal use level is met on key species, a closure 
notice will be issued for the affected area. The permittees 
will have 3 days after the receipt of the notice to remove all 
livestock from the Federal lands in the use area. Mr. Chairman, 
most of the livestock permittees are running the Cumberland 
live in the Randolph area in Utah. You know most of these 
people, I'm pretty sure: ranchers such as Charlie and Connie 
Rex, Ed Brown and Burdette and Simeon Weston; these are people 
you probably know.
    These restrictions by the BLM on their grazing program at 
the end of the grazing season on real short notice have caused 
them a lot of money and management problems. It's my 
professional opinion that the resource conditions in the 
Cumberland in 1996 did not support the type of action taken by 
the BLM to impose utilization limits and livestock closure 
limits.
    If the forage production in the particular allotment is 
consistent with the allotment production levels that were there 
during the adjudication of the allotment, it is my testimony on 
their behalf that they have a right to assume that a deal's a 
deal. These types of reductions of AUMs will not show up 
publicly because this method is largely hidden from the view of 
the industry, the public and from Congress. To make matters 
even worse, if they own private land in the allotment being 
closed, they can't even use their own land for grazing because 
their private lands are unfenced and intermingled with the BLM 
lands under closure. Livestock don't know the difference in 
ownership and they're subject to trespass and even seizure by 
the BLM on these lands that are closed to grazing.
    In 1995, BLM was in the process of revising their technical 
manuals when the Association of Rangeland Consultants was asked 
by the Bureau to review those manuals. I'd like to close my 
testimony with a quote from our review. ``Over the past several 
years, the land management agencies have abandoned the historic 
practice of using broad monitoring information and the art of 
range management to work through people in the resolution of 
rangeland issues. Instead, they have adopted an approach to 
manage rangeland issues based mainly on empirical data and 
established numbers or standards. The documents under review 
appear to continue this trend.'' I've seen the final documents, 
Mr. Chairman, and they haven't been changed to reflect our 
comments.
    Thank you for this opportunity.
    [The prepared statement of Mr. Loper may be found at end of 
hearing.]
    Mr. Hansen. Thank you. Mr. Burton?

      STATEMENT OF WESLEY NEIL BRUTON, RANCHER, NEW MEXICO

    Mr. Bruton. Chairman Hansen and members of the Committee--
--
    Mr. Hansen. Pull that microphone just a little tad closer 
to you, if you would, please. Thank you.
    Mr. Bruton. First, let me thank you for the opportunity to 
speak before you today. My name is Wesley Neil Bruton. I am 
from San Antonio, New Mexico, where I live with my wife, son, 
and daughter. We are part of an agriculture operation that has 
been in central New Mexico since 1880, when my great 
grandfather moved there from south Texas.
    With my parents, we ranch and farm on private, state 
leases, and Federal lands. In the West, you acquire lands and 
the public permits that go with them by inheriting them or 
purchasing it. As a family, we built the operation purchasing 
private land along with state leases and Federal leases. I am 
proud that my father is here with me today, Neil Bruton, and 
our intentions are to pass what we have on to my daughter, 
Brittany, who is 12 years old today, and son, Wesley, who is 4.
    Our operation includes Bureau of Land Management land, BLM 
land, as well as Bureau of Reclamation lands that are 
administered by the BLM. In many cases, these lands are 
commingled with state and private property, with no fencing. 
Frankly, Dad and I would rather be home today doing what we do 
best, caring for our livestock and our lands. Actions of the 
Federal Government have made that impossible. We have heard the 
stories about how our Government--our Government--is taking 
away citizens' rights. We thought those things happened to 
other people.
    We were wrong and we should have known better. It has 
happened to the family before. The Federal Government took land 
from my grandparents back in 1941 for White Sands Missile 
Range. At that time, it was patriotism that was the standard-
bearer of land grabs. We are a patriotic people. My father 
served in the Korean conflict and we do believe in fighting for 
what is right and what is ours.
    We are here today to tell you about what the Federal 
Government has done to us in 1997 in the name of a bird. We 
learned this spring that Federal employees, or persons 
contracted by the Federal Government, trespassed on our private 
lands in search of endangered species, specifically the 
southwestern willow flycatcher. They then used the information 
they obtained while trespassing on our lands, our private 
lands, to remove us from our Federal lease lands. In that area, 
we ran 175 mother cows. The spring and summer of the year is 
the best time, for the forage is at its best, and it will also 
be the time that most of our cows are calving, lactating, and 
breeding back.
    Based on the information gained through illegal entry, the 
Federal Government issued a decision to eliminate grazing in 
the area for three-and-a-half months during the prime portion 
of the year. That was bad enough. However, this decision was a 
full-force-and-effect decision, which requires immediate 
compliance. That immediate compliance, in our case, was for 6 
days. We had only 6 days to remove 175 cows, along with many 
calves of varying ages and size. The river was high and 
flooding and the brush was in full foliage, making it virtually 
impossible to use horses or any other method of gathering the 
live--the cattle. We had to go in on foot and in small boats. 
We ended up hauling one heavy pregnant cow in a boat. We 
generally gather this area in the fall, when there is little 
foliage, and bait the cattle out with feed. Then it usually 
takes us 3 to 4 months to get the job done.
    In addition to getting the cattle out of the river bottom, 
we had to find other pastures for them. That was no easy chore 
and was extremely expensive because most of our area was just 
recovering from a drought. The pasture we found was over 150 
miles away. In all, we spent more than $32,000 in additional 
pasture rent, labor, and trucking to move livestock.
    If we hadn't, if we had not complied with the order, 
removal order, within the 6 days allotted, we would have been 
guilty of willful trespass on Federal property which could have 
resulted in the impoundment of our cattle as well as large 
fines. In addition, all of the other permits on Federal lands 
would have been in jeopardy.
    With that full-force-and-effect decision, any appeal which 
must initially be done through the administrative process 
cannot take place under after compliance with the order. We did 
try to use the courts to at least get more time to remove the 
cattle. However, in only 6 days to comply, by the time we got 
the lawyer hired and the proper paperwork filed, the time was 
up. We were denied the stay near the end of July, better than 
90 days after we had to remove the cattle. We have filed an 
appeal administratively and have yet to hear anything about it.
    The driving force behind this nightmare is the Endangered 
Species Act which caused the U.S. Fish and Wildlife Service to 
issue a notice to the Bureau of Reclamation that grazing could 
result in a take of the southwestern willow flycatcher. A take 
of an endangered species can result in criminal action as well 
as stiff fines. The southwestern willow flycatcher is a bird 
listed in March 1997 and it is a subspecies that can only be 
identified by the way it sings. If you have not heard one, you 
wouldn't know one. It amazes me that Federal employees can 
identify such a creature by sound alone, but they do not have 
the ability to identify property lines between Federal and 
private lands on a map.
    Since this mess started, we have learned that inventories 
were done on our private land in 1994, 1995, and 1996 for the 
southwestern willow flycatcher. In 1996, cowbirds were also 
trapped on our private land without our knowledge or 
permission. The primary concern with grazing in area where 
there may be willow flycatchers is a cowbird. It is believed, 
but not scientifically proven, that cows attract cowbirds. In 
any event, we are told that cowbirds lay eggs in the 
flycatchers' nests; then the Flycatchers end up raising baby 
cowbirds instead of their own. There is also some concern that 
cattle knock down nests, but most of the low nests are over 
water, and our cows, at least, are not big swimmers.
    The last 5 months have been a nightmare that I would not 
have believed could have happened to me or anyone else in this 
United States. And, it appears to me that it has only just 
begun. We have been unable to get any commitment from the 
Bureau of Reclamation about our future in utilizing the grazing 
land. There is a land use plan in the works, but grazing has 
yet to be addressed. At the present time, there is no stability 
in our agricultural operation. We don't know whether, when, or 
whenever we'll be able to have to remove the cattle. Our 
private land has no resell value. Who in their right mind would 
want to get involved in this ranch?
    We were allowed to go back on the area August the 1st of 
1997, but we did not know when we will have to be removed 
again. We want to leave this ranch to our children, but who 
would wish such a thing on their kids?
    I know you are here today to discuss the reduction of the 
use on BLM lands. From my perspective, until and unless the 
Endangered Species Act is modified, future use of BLM lands 
will continue to be a target on the Fish and Wildlife Service, 
and citizens, like my family and I, are in serious trouble. 
There is no avenue in the Endangered Species Act for 
individuals to have any meaningful input. Science means 
nothing; economic impacts mean nothing; customs and culturals 
mean nothing. The Fish and Wildlife Service is a kingdom of 
it's own and a predator to Federal funding.
    Other Federal agencies are being forced to spend millions 
on endangered species consultation and assessments. There are 
no checks and balances. Few of us have money to hire attorneys 
to protect our rights; that's why we elect people like you.
    In 3 years of Federal research, we were never once 
contacted about the presence of this willow flycatcher on our 
property. Our local government was never consulted and there 
was never been an economic or culture analysis done on the area 
in relation to this issue. Common sense indicates this would 
have been an ideal year to study the true affects of grazing on 
the willow flycatcher.
    The Fish and Wildlife Service issued a permit for the 
Bureau of Reclamation for trapping cowbirds. We had out-of-bank 
flooding on the river and the cows were happy. Instead, we were 
put through hell. Not only have we been put through a great 
deal of personal stress and expense, but our own tax dollars 
had been paying for the oppression upon us.
    I thank you again for your time and consideration. My 
family certainly hopes and prays that you here in Washington 
can see what is being done to those of us the country--in the 
country--before too many more of us are put out of business. 
Thank you.
    [The prepared statement of Mr. Bruton may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Bruton.
    Mr. Smith?

           STATEMENT OF ALLEN E. SMITH, RANCHER, UTAH

    Mr. Allen Smith. Thank you, Mr. Chairman. My name is Allen 
Smith and I am here on behalf of the 22,000 members of the Utah 
Farm Bureau Federation, many of whom, like me, are BLM grazing 
permittees. I'm also past chairman of the public lands for the 
Utah Cattlemen's Association.
    We have deep concerns about the reductions of grazing on 
the western BLM lands. Back in 1934, in support of establishing 
the BLM, my grandfather, Maroni Smith, testified on the 
importance of protecting the stability of the livestock 
industry and sustainable grazing on public lands. As a third 
generation rancher in northeastern Utah and a recipient of a 
BLM environmental stewardship award, it is somewhat ironic for 
me, 63 years later, to be back here opposing what we believe to 
be unwarranted cutbacks in BLM grazing.
    We've heard rumors of BLM pressuring the Hanley Ranch in 
Jordan Valley, Oregon, to reduce grazing. Other concerns are 
outlined in my extended statement. Papercuts, as they are often 
called, reduce permits from preference use, which the permittee 
bought, to actual AUMs used. Over the years, many ranchers have 
voluntarily have taken non-use in times of drought, et cetera, 
with the promise of getting their suspended AUMs back when 
ranges improve. Too many times these suspended AUMs were 
subsequently left, for wildlife, never returned to the 
permittee. No doubt this Committee will hear other examples. 
But I am here with a specific example of BLM grazing reductions 
on an historic ranch in my area, a ranch with which I am very 
familiar. My written extended comments and exhibits will more 
fully illustrate this situation.
    The Nutter Ranch in my area began grazing in 1860's. When 
the BLM acquired control of the public lands in 1934, grazing 
continued on the Nutter under a BLM permit. For 18 years, this 
ranch has been managed by a university-trained range 
conservationist. A recent range evaluation by Utah State 
Extension Range Ecologist James Bown shows livestock are not 
damaging the ranges in question, a fact concerned by a letter 
from Dr. Bown in my extended comments.
    The authorized AUMs on the Nutter in 1979 were 8,584 active 
and 5,416 AUMs suspended, for a total of 14,000 AUMs under the 
year-around grazing permit. By August 1997, the BLM had reduced 
the Nutter permit to 3,038 active AUMs, a loss of 5,546 and 
1,783 suspended AUMs. Recently, the BLM acquired ownership of 
756 acres of private bottom land from the Nutter Ranch on the 
Green River near Nine Mile Canyon as a mitigation agreement. 
These 756 acres had been part of the ranch's private grazing 
area since the 1860's.
    Now, the BLM has notified the Nutter Ranch that they can no 
longer graze these acres plus an additional 1,331 acres of 
adjacent public land. This closure will effectively make it 
impossible for the ranch to use much of their private grazing 
land and adjacent state school trust land sections because the 
closure shuts off water accesses and trailways. Like a missing 
link in a chain, this administrative decision denies the ranch 
a place to raise cattle from October 15 to February and between 
November and April 15.
    A draft Environmental Assessment for the acquired Nine Mile 
Canyon and the Green River area was released August 29 with a 
closing date of October 2. Farm Bureau did not receive a copy 
of this EA until September 22, when I personally took one to 
them. Farm Bureau usually received BLM draft EAs in Utah 
because the Farm Bureau tries to help ranchers work through the 
proposals in a cooperative way. We have requested 30 days more 
comment period and we await formal reply on that request. In my 
view, the EA is very biased in favor of recreational river 
runners on the Green River.
    Particularly disheartening to us was the EA justification 
for excluding livestock listed as, one, protect natural values; 
two, protect cultural resources, and three, provide a 
wilderness quality recreational experience.
    Mr. Chairman, this is not a wilderness area. If it were, 
the 1964 Wilderness Act would have specifically protected 
continued grazing. We must ask where in the BLM charter do 
these stated objectives take precedence over the multiple use 
such as the continued, well-managed grazing and continued 
stability of the livestock industry provided for in the Taylor 
Grazing Act and other Federal laws?
    Another serious concern is that now, all these many years 
after the fact, BLM is threatening to levy agricultural 
trespass charges against the ranch for corrals that have been 
on the ranch, land, over 100 years, long before a permit for 
such facilities was required. Frankly, Mr. Chairman, it looks 
to me like the BLM may be trying to harass the ranch until they 
agree to provide public access across private land as their--a 
condition of this grazing permit. We will let the Committee 
form your own conclusions on this after reviewing the extended 
comments which include letters from the BLM to the ranch on 
these matters.
    Thank you, Mr. Chairman and members of this Committee, for 
your oversight on the BLM on these issues. I appreciate the 
opportunity to present these comments to you.
    [The prepared statement of Mr. Allen Smith follows:]
    Mr. Hansen. Thank you, Mr. Smith.
    I hope you folks realize that down the hall from us there's 
a hearing going on regarding fire as a tool on the public land 
and Secretary of the Interior Babbitt and Secretary of 
Agriculture Glickman and a few other heavyweights are down 
there. So, our Committee, I think, meandered down near the end 
of the hall. But, most of this will be looked at in great 
detail.
    I'm a little concerned on what each one of you said about 
things. And Mr. Smith, maybe got this wrong on this Nine Mile 
Green River EA? You say part--BLM, did they identify wilderness 
quality experience in justification for livestock inclusion? I 
mean, BLM--wilderness is abundantly clear that livestock can go 
in wilderness.
    Mr. Smith. In the EA I read, and I think it is a very--it 
was the most biased EA. I've read many over the years, Mr. 
Chairman. This one would have been impossible for a layperson 
that hadn't studied the EAs to even understand it. But they 
listed three objectives, three objectives only, for the 
acquisition of these properties. I fail to see--I'd like to see 
the original documentation. I don't think that those three 
objectives that I listed here, in fact, are the true objectives 
for the acquisition of these 756 acres.
    Mr. Hansen. Now, some of this is private land that you own 
and some of it is contiguous to public land?
    Mr. Smith. The Nutter Ranch. I don't own it, but it's a 
neighboring ranch to me.
    Mr. Hansen. I see. That's----
    Mr. Smith. But it was private and it was acquired by the 
BLM through a mitigation agreement.
    Mr. Hansen. I missed another thing. You mentioned cowbird 
trapping that took place on your property. What was that about?
    Mr. Smith. Then pardon me? I didn't----
    Mr. Hansen. But that was Mr. Bruton----
    Mr. Bruton. Yes, sir.
    Mr. Hansen. OK, could you respond to that? I kind of--what 
was----
    Mr. Bruton. OK, we weren't aware of it. In fact, we didn't 
even know of the 3 years of the studying being conducted on our 
private land. We had noticed some cages up, but we never seen 
any personnel around them. We never was able to find anyone. 
And they were doing the trapping as of last year on our private 
land.
    Mr. Hansen. Well, did they trespass on your ground?
    Mr. Bruton. Yes, sir, they did.
    Mr. Hansen. What justification did they have for that? Did 
they ask for your permission to come on the ground?
    Mr. Bruton. No, sir, they did not. They----
    Mr. Hansen. Did you talk to them about it?
    Mr. Bruton. We did talk to them about it. We told them they 
were in trespass. Actually, to a field trip that was on the 
grounds with the Fish and Wildlife, Bureau of Reclamation, and 
the BLM, they showed us the spot where all the nest sites were 
at. And that was on our private land. We notified them, told 
them at that time, this is all private property. And they said, 
``Oh, we're sorry, we might have made a mistake, but we still 
think we own it.''
    Mr. Hansen. Did they leave when you said that?
    Mr. Bruton. No, sir, they did not.
    Mr. Hansen. Well, I guess if they have a warrant, they can 
come on, or with your permission they can come on. And they had 
neither one of those, is that right?
    Mr. Bruton. No, sir.
    Mr. Hansen. It's kind of arrogant, I would think. Mr. 
Smith, have you ever seen where they have increased AUMs in the 
last, say, 20 years?
    Mr. Smith. Mr. Chairman, I've been very active in Federal 
land issues since I've been a full time rancher since 1960. To 
my knowledge, I don't know of one rancher that has ever 
received their suspended AUMs back. Matter of fact, it's my 
personal knowledge, the last land use plan that was made for 
our BLM further stated that any increases that forage may be 
available will automatically go to wildlife. No, I don't know 
of any place that has--any rancher that has received their 
suspended AUMs back.
    Mr. Hansen. Any of the----
    Mr. Smith. It could have happened, but I'm not aware of 
any.
    Mr. Hansen. Any of the rest of you?
    Mr. Loper. I know of a very few examples, Mr. Chairman, but 
they're few and far between.
    Mr. Hansen. Now, Mr. Loper, I don't know if I understood 
what you're saying, but you're talking about intermingling land 
ownership patterns causing management problems. Explain that a 
little more, would you?
    Mr. Loper. Yes, sir, and I'd like to show you a map, if I 
could, please, of part of the area. It graphically shows an 
extreme example of the problems we face with the intermingled 
ownership. Even though it's a long ways away, you can probably 
see it's a checkerboard pattern. As you know, this came about 
as a result of the railroad situation----
    Mr. Hansen. Typical western thing, though. You look at our 
western states, it looks like a patchwork quilt. It's like when 
the President came in and declared the monument in Utah: 1.7 
million acres, 200,000 acres that belongs to the State.
    Mr. Loper. Yes, sir, that's the problem we have, of course, 
is that these lands are unfinished and intermingled and, as a 
result, when the Bureau of Land Management makes a decision on 
grazing that, you know, has their policies as a basis for that 
decision, a lot of our private and state lands don't 
necessarily want to fully comply with that. They have other 
high-priority objectives, but we don't have any choice but to 
go along. So, basically, we don't have any private and state 
land rights if we're unfinished and intermingled.
    Mr. Hansen. You also got into something about riparian 
areas, if I note you right, carrying more BLM grazing 
allotments and how important they are. Can you elaborate on 
that just a little bit?
    Mr. Loper. Riparian areas are kind of a critical thing 
around here and----
    Mr. Hansen. Personally, I think that the worst thing for 
riparian areas is the Wild Horse and Burro Act, but I won't 
elaborate on that. They go in there and mess up those areas 
more than anything there is around. I hope Jim Gibbons 
introduces his bill and I will promise him a hearing on it 
immediately, and I would think all these environmentalists 
should jump right on that one. This is where you and the 
environmental crowd could all get along, I would think. But, 
you want to elaborate on that?
    Mr. Loper. Yes, sir, and with respect to wild horses and 
the excess wildlife numbers, not traditional, but the riparian 
areas are the areas, of course, that are well-watered all year 
long and have the most luscious types of forage production. 
They represent only 1 or 2 percent of the lands in the West. 
Most of it's arid uplands and most of the arid uplands are 
owned by the BLM. And a high percent of the riparian areas are 
owned by private individuals or, in some cases, state lands. 
And most of those lands, riparian areas, are unfinished, 
intermingled within the BLM allotment. So, ranchers that own 
these riparian areas are more than happy to share the forage 
that they own on riparian habitat with wild horses and 
wildlife, so long as they feel like they're receiving fair and 
equitable treatment from the BLM. But, it's getting less and 
less of an ability to get along with the Federal agencies as a 
result of the policies that have evolved over the last 2 or 3 
years. They're just getting hard to get along with.
    Mr. Hansen. Well, Mr. Sharpe, I hope you're taking notes on 
all this.
    Mr. Smith, you want an additional statement?
    Mr. Allen Smith. I would like to just make a comment. It's 
coming secondhand to me by Jim Ecker, who represented the Utah 
Cattlemen's Association on our riparian committee in the State 
of Utah. He once made the comment to me and I think it--I put 
it in my mind. I think it's very apropos at this time. But he 
said, in the West, much of the riparian areas are owned by the 
private landowners, the ranchers, the farmers. But us public 
land users out there, us that use the BLMs and the forest, 
sometimes the decision by the Federal land managers putting us 
off of the uplands in the forest in the BLMs earlier or in 
other times puts a severe amount of pressure back on the 
riparian areas. And so, in effect, their decisions, by sending 
home a lot of the permittees early, in many cases it's putting 
an additional riparian stress down on those private riparian 
areas.
    Mr. Hansen. You notice on the back wall lights are flashing 
on again. A couple other questions I have, I'll just submit 
them in writing; hope you folks would respond to them. 
Appreciate that.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. Thanks for this panel. Let me get the next 
panel on, the last panel, if we could. We're going to run out 
of time and I'm embarrassed that we've played musical chairs 
with you folks like we have.
    Steven Moyer, Director of Governmental Affairs, Trout 
Unlimited, and Frances A. Hunt, Director of BLM Programs, the 
Wilderness Society. If you folks would come up, we'd appreciate 
it. We appreciate you being with us and apologize to you, as we 
have the others, for keeping you here this long. This is a 
relatively short hearing that turned into a long one, and I 
said, I can't control the floor.
    Mr. Moyer, I appreciate you being here and we'll turn the 
time to you, sir.

  STATEMENT OF STEVEN MOYER, DIRECTOR OF GOVERNMENT AFFAIRS, 
                        TROUT UNLIMITED

    Mr. Moyer. Thank you. I think you should get credit for 
being involved in the debate that's happening today. We just 
have to sit here and wait for you to come back. Our job is 
easier, I believe.
    I'm Steve Moyer. I'm the Director of Government Affairs for 
Trout Unlimited. Trout Unlimited is a national fisheries 
conservation group dedicated to the conservation and 
restoration of our Nation's trout and salmon resources, and the 
watersheds that sustain those resources. We have about 98,000 
members in 445 chapters in 38 states.
    Our members have a major stake in land management decisions 
that affect resources on our public rangelands because trout 
and salmon are often found there, as well. Our members 
generally are trout and salmon fishermen and women who 
voluntarily contribute a lot of time and energy into protection 
and restoration of streams and rivers around the country, 
including those on our public rangelands. Many TU members fish 
on streams and BLM lands and numerous TU chapters work directly 
with the BLM. We have a partnership agreement with them to 
conduct stream restoration projects on streams on BLM lands. So 
I'll comment today from our experience with working with the 
Forest Service and BLM on rangeland and grazing management, and 
our experiences with working with ranchers directly on 
cooperative projects where we manage--help them manage--their 
rangelands that help them and also help the fish.
    Grazing can be compatible with healthy rangelands and 
riparian zones and fisheries, if it's managed properly. And 
like I've said, we've had first-hand experience of working with 
ranchers to do that. We've worked with ranchers from Mossy 
Creek, Virginia, to the Blackfoot River in Montana, to the 
Crooked River in Oregon to protect and restore riparian areas 
that are grazed.
    But also, clearly, if not managed properly, overgrazing can 
destroy riparian areas and fish habitats, associated sport 
fisheries which are sometimes extremely valuable, and lower 
range productivity. The Forest Service and BLM manage about 270 
million acres of rangelands and on those lands we see 
substantial economic value coming to communities from fisheries 
that can be affected by rangelands. On Forest Service 
rangelands, for example, a substantial portion of about $1.8 
billion worth of expenditures from fishing is sustained by the 
fisheries that come from rangelands. But, loss of riparian 
habitat and widening of streams, raising of tempera-

tures, can diminish the productivity of streams for trout and 
salmon.
    And a paper that was done by the American Fishery Society, 
the professional society of the fisheries biologists of this 
country, in 1994, found that about 50 percent of western 
rangeland streams were damaged, at least to some degree, by 
grazing. Overgrazing has been a factor, sometimes not the 
largest factor, but a factor in just about all the endangered 
trout and salmon species that have occurred in the country. 
There are now 18 species of trout and salmon that are listed as 
threatened or endangered, including extremely valuable 
fisheries, like steelhead, which are now listed as threatened 
from the Canadian border in central Washington through Idaho 
and all the way down to Los Angeles. So, we have widespread 
problems with grazing affecting fisheries. Sometimes it's not 
the biggest problem that affect fish, but it--it often is a 
problem.
    And, for those reasons, we think that there has to be 
change that occurs in Federal grazing management practices. 
It's a big job, but we think that ranchers, conservationists, 
and the agencies can be up to the task. We're hopeful about it, 
and one of the reasons we're hopeful about it is because we see 
some positive developments that are occurring, one of which is 
the Resource Conservation Council that had been put into effect 
by BLM. TU members are all RACs in several states, in several 
places, and they report to us that those RACs are making 
headway in bringing people together to find solutions to 
difficult problems and to work on the standards and guidelines 
that will guide grazing. I think that's one very important 
example of important improvements that are occurring that 
should not be undercut by Federal legislation that's now 
pending before Congress.
    There are other positive developments as well. I listed 
some of those in my testimony, but one of the most important 
things that I think hasn't really been discussed here but we 
keep talking around it is the need to get more funding to the 
agencies to do things, like monitoring and management. It seems 
like we're all agreeing that monitoring could be better, that 
management could be better. It seems to me that we ought to 
figure out how much money that costs and how to get that money 
to pay for either the agencies or consultants, like the one 
that's here at this hearing, to do the work that would make us 
all happier.
    And we would like to work with Congress and the agencies to 
get them to figure out how much more money is needed to get the 
people out on the ground to do a better job, rather than 
passing legislation, such as pending before the Committee, that 
we think would undercut the progress that we think is 
occurring.
    So, with that, I'll end my testimony and again, thank you 
very much for the opportunity to testify.
    [The prepared statement of Mr. Moyer may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Moyer. We appreciate your 
testimony.
    Frances Hunt, we'll turn the time to you.

    STATEMENT OF FRANCES HUNT, DIRECTOR, BLM PROGRAMS, THE 
                       WILDERNESS SOCIETY

    Ms. Hunt. Thank you, Mr. Chairman. In the interest of time, 
I'm going to focus on four key concepts affecting range 
management today. But, before I begin, I'll note that there are 
several attachments to my statement, and one of those is an 
open letter to Representative Bob Smith signed by over 100 
national, regional, and local wildlife and fish, conservation, 
fiscal, and environmental groups.
    The first of the points--four points--I'll make today is 
this, and that is, that we must never forget that our public 
rangelands do, indeed, belong to all Americans and that no one 
group or interest has the right to use these lands in such a 
way as to impair their productivity or to deny other legitimate 
range uses and benefits. Now, grazing is absolutely one of many 
appropriate uses of the public lands, but private ranchers do 
not have an absolute right to graze the public's land, and 
private ranching operations on our Federal lands cannot be 
allowed to degrade fish, wildlife, water, recreation, or other 
public values. This longstanding distinction between rights and 
privileges is clearly delineated in the Taylor Grazing Act, and 
I've attached that section of the Taylor Grazing Act to my 
statement.
    The second important concept to remember is that, because 
the Federal rangelands belong to all Americans and because they 
should be managed for the greatest benefit of all American 
citizens, it is completely appropriate that these lands be 
managed to a very strict standard of resource conservation. 
Private livestock operators who choose to seek to graze 
livestock on Federal lands must expect that they're going to be 
required to operate their activities so as to safeguard the 
public's resources. And they shouldn't necessarily expect that 
the land management practices that they use on the private 
lands or state lands that they own or lease are going to be 
adequate or appropriate for the protection of the valuable and 
diverse Federal resources that Federal rangelands contain.
    Third, it's unfortunately clear from a review of both BLM 
and Forest Service data that our Nation's rangelands are not 
currently in a very good condition. Although in certain areas 
of the western United States Federal land grazing is, indeed, 
well-managed and is managed with limited negative environmental 
impacts, too often, still, and in too many places, still, 
livestock grazing permitted by the Federal agencies is having 
serious negative environmental impacts: damage to fisheries, 
damage to water resources, damage to recreational 
opportunities. And, of course, the sad irony of this situation 
is that resource damage harms both the ranchers and the rest of 
the American public, who seek to use, enjoy, and benefit from 
these lands.
    The final point I'm going to make today is related, again, 
to resource conditions. An examination of these resource 
conditions, and BLM and Forest Service policies and activities 
and funding levels all clearly indicate that the agencies need 
to do a much better job of monitoring, managing and protecting 
our public rangelands.
    I have three charts attached to my testimony, Mr. Chairman.
    This is a chart put together with BLM data. It depicts 
current rangeland conditions, current as of 1996. The first bar 
here is the total Federal acreage of rangelands managed by the 
BLM for grazing, some 156 million acres. The two bars that come 
next depict that amount of acreage that is in excellent and 
good condition. The two bars following that, the red bars, show 
the amount of rangeland that's considered by the agencies to be 
in fair or poor condition. And the final red bar is an 
unclassified or an unknown. And one thing you see, 
unfortunately, immediately when you look at this chart is that 
we have far more of our Federal rangelands in poor condition 
than are in excellent, and more that are in fair than are in 
good. In fact, over 50 percent of the BLM-managed public 
rangelands are considered to be in, to varying degrees, a 
damaged condition.
    Now that data paints a troubling picture but, if you look 
at EPA and GAO reports, you'll see that that data probably 
underestimates the data--excuse me, underestimates the damage 
because it is for all rangelands and, in fact, our riparian 
areas, our streams, our rivers, the very areas that provide the 
fish and wildlife habitat so important are actually in even 
worse condition.
    I'll finish my testimony with one chart that quickly shows 
BLM monitoring activities. Unfortunately, as we have heard 
several times today, in many ways and in many places, the BLM 
has too few resources, too few people, and too little ability 
to get out and do the kind of on-the-ground job that needs to 
be done. That's spend the time on the ground, and spend the 
time with the rancher. If someone had testified to the number 
of acres that an average range con. has to manage, I think we'd 
all be astounded. It's not a job I would take willingly a this 
point.
    But this is this chart summarized 1996 monitoring activity 
by the agency. Again, this is the total acreage or total number 
of allotments, a little over 21,000, 22,000 on BLM land. They 
were only able to get out on about 4,000 of them. And there are 
a lot of acres that they never get to and the result is not 
only that resource conditions may suffer but confusion and a 
lack of information between the agency and the ranchers and the 
agency and the public. And we think that one of the reasons our 
rangelands continue to be in poor conditions are because the 
agency just is not able for a number of reasons to get out 
there and do the monitoring job they should do. Thank you, Mr. 
Chairman.
    [The prepared statement of Ms. Hunt may be found at end of 
hearing.]
    Mr. Hansen. Thank you. I appreciate the testimony of both 
of you. I have a number of questions for you, but I also have a 
clock ticking on me up there. And I've got about 4 minutes to 
get to the floor and do something. So, could I submit those 
questions, not only to the present panel, but to others that 
were here? This is something we want to ponder, go over, 
examine the testimony, work on a few things, get a little more 
information from BLM, maybe the Forest Service and others 
regarding grazing.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. So, with that, let me thank each and every 
witness for being here and, gee, I appreciate your patience. 
It's a terrible thing when we're running in and out this way. 
Believe me, they used to say two things you don't want to see 
made: One is sausage and one is laws, and I can understand 
that. And today we're com-

peting with some heavyweights down the block, but let me thank 
you for coming here to Washington, taking the time to give us 
your excellent testimony, and we will look at it. We do expect 
to be able to correspond with you on various areas.
    With that, this hearing is adjourned.
    [Whereupon, at 1:30 p.m., the Subcommittee was adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Jeff Menges, Chairman, Federal Lands Committee, National 
                      Cattlemen's Beef Association

    Thank you Mr. Chairman, my name is Jeff Menges. I am the 
Chairman of the Federal Lands Committee for the National 
Cattlemen's Beef Association.
    My family and I currently have two BLM allotments in 
Arizona and one in New Mexico. Although it is too soon to 
determine the impacts of Secretary Babbitt's Rangeland Reform 
grazing regulations, I have found the BLM to be a reasonable 
agency to deal with. However it is becoming increasingly 
difficult to ranch profitably on the public lands. Today, I 
would like to articulate some of the problems public land 
ranchers face and offer some possible solutions for these 
problems to this Subcommittee.
    Implementation of the Endangered Species Act by the United 
States Fish and Wildlife Service is one area of major concern. 
We do not need two agencies duplicating administrative actions 
for the same purpose on the public lands. To draft a Biological 
Opinion for BLM lands, the BLM biologists must first draft a 
Biological Evaluation which is then reviewed and rewritten by 
USFWS biologists as a draft Biological Opinion. Consultation 
between the agencies then occurs and the result is a Final 
Biological Opinion. On Federal land this is simply multiple 
layers of government working to accomplish the same result: 
protect and recover endangered plants and animals. These 
responsibilities could and should be administered by the land 
management agencies only. This would solve financial and 
administrative problems for both agencies. It would also allow 
more timely, achievable decisions so the land management 
agencies and the multiple users can function efficiently.
    Secretary Babbitt's grazing regulations required 
development of Grazing Standards and Guidelines (S&G's). These 
S&G's in turn were required to address ``restoring, 
maintaining, or enhancing habitats'' of endangered species. 
Arizona's S&G's were developed with input from the Resource 
Advisory Council (a group on which I served) and signed by the 
Secretary of Interior. However in the Draft Biological Opinion 
developed by the USFWS for livestock grazing administered by 
the BLM Safford and Tucson Field offices in southeast Arizona, 
implementation of the S&G's will be overridden by the mandatory 
terms and conditions in the Biological Opinion. Our Smuggler 
Peak allotment is just one example.
    Since implementation of a winter grazing program on the 
Gila River pasture on the allotment in 1990, the riparian area 
in the pasture has been determined to be in proper functioning 
condition, the highest category. This area will easily meet all 
requirements of the S&G's. However, implementation of the terms 
and conditions in the Draft Biological Opinion will require 
complete removal of cattle from the river riparian area on my 
allotment and on 11 additional allotments to maintain habitat 
features necessary to support breeding populations of pygmy 
owls. It further requires suspension of grazing on nine 
allotments, again to avoid habitat modification for pygmy owls. 
Pygmy owls do not exist on any of these 21 allotments; it is 
not occupied habitat, nor has it been designated as critical 
habitat for pygmy owls, yet modification of this potential 
habitat for pygmy owls will be considered ``take.''
    The USFWS takes this position even when Section 2 of the 
Endangered Species Act defines ``take'' as meaning ``to harass, 
harm, pursue, hunt, shoot, wound, kill, trap, capture, or 
collect, or attempt to engage in any such conduct.'' Also, in a 
recent decision, the United States Supreme Court stated:

        in the context of the ESA, that definition naturally 
        encompasses habitat modification that results in actual death 
        or injury to members of an endangered species.

Babbitt v. Sweet Home Chap. Of Communities for a Greater Oregon, 132 L. 
Ed. 2d 597, 610 (1995).
    Even with this seemingly clear direction, the USFWS continues to 
determine that a modification of potential habitat is a taking of an 
endangered species. The resulting effect to the 21 permittees will be 
financially devastating as well as being contradictory to the S&G's 
which were approved by the Secretary of the Interior.
    It is difficult to imagine any area that could not be considered 
potential habitat for some species that is either listed or may be 
listed as endangered. The USFWS needs more avenues for local input. 
Expanding BLM Resource Advisory Councils to include recommendations to 
the USFWS should be considered.
    The S&G's require allotment evaluations. This will require accurate 
data to be gathered from monitoring. In recent years monitoring has 
been a low priority item that has not withstood the budget cutting 
process. We believe that vegetation monitoring is very important and 
should be a high priority for the BLM. We recommend making vegetation 
monitoring a line item so that monies appropriated for this purpose 
will have to be spent accordingly. An annual monitoring report should 
follow.
    Another major area of concern is the lack of accountability by 
State wildlife agencies for the impacts their actions have on Federal 
lands. Using BLM's own numbers, the number of elk on public lands 
(excluding Alaska) have increased from 18,278 in 1960, to 142,870 in 
1988, to 201,904 in 1996--this is over a 1,000 percent in the past 36 
years. There are also substantial increases for antelope, deer, bighorn 
sheep, and moose. For the elk population, much of this increase can be 
attributed to livestock management and livestock industry-initiated 
programs like the screwworm eradication effort, which have benefited 
wildlife as well as livestock. The result of all these additional 
grazing wildlife has been resource degradation and reduction in 
available AUM's for livestock, without compensation to permittees who 
pay for use of the forage. Again, accurate vegetation monitoring is 
needed to accumulate data needed to address this problem.
    Some states provide depredation permits to compensate ranchers for 
loss of forage. We would support expanding that system to include other 
lands. A process emphasizing local input need established whereby 
wildlife population and management can be incorporated into management 
of Federal lands. My suggestion is that State wildlife agencies should:

        1. Enter into MOU's with Federal agencies regarding resource 
        outcomes. Local experts should be involved in determining the 
        outcomes. Participation with RAC's should be encouraged.
        2. Be held to strict levels of accountability, as Federal 
        grazing permittees are, for range condition and trend, to the 
        extent that their actions or inactions impede the meeting of 
        desired outcomes.
        3. Be held accountable for mitigating damage done to 
        permitters, either in terms of private values diminished by 
        some action or inaction, or by the penalties imposed on 
        permittees for failure to abide by his or her permit terms and 
        conditions as result of State wildlife agencies' action or 
        inaction. Available options might include:

                A. Temporary issuance of ``permitte'' hunting permits 
                for a special hunting period to correct adverse 
                wildlife impacts and compensate permittee for economic 
                loss;
                B. Issuance of permittee owned hunting permits on an 
                annual basis to compensate permittee for economic loss.
                C. Payments by State wildlife agencies to permittees 
                for economic loss.
    Some ways to achieve compliance from State wildlife agencies might 
include:

        1. Suspension of some portion of transfer payments from Federal 
        to state governments (particularly those payments that go 
        directly to State wildlife agencies).
        2. Make availability of Federal funds to State wildlife 
        agencies contingent on compliance.
    Thank you for the opportunity to speak with you today. I look 
forward to working with your Subcommittee to make improvements with 
respect to these issues.
                                 ______
                                 
       Statement of Brent Atkin, President, Public Lands Council
    Thank you, Mr. Chairman, for the chance to testify today. I would 
like to talk today about some of the issues facing Federal lands 
ranchers with BLM allotments today that have arisen as a result of 
agency application of the Clean Water Act, the Clean Air Act, and the 
National Historic Preservation Act. These laws were well intentioned by 
Congress when they were passed and have no-doubt solved many problems 
that gave rise to them in the first place. However, over time, as is 
the case with many laws, regulatory agencies have converted the 
mandates from these laws into some rather heavy regulatory burdens in 
situations where Congress never imagined that these laws would be used.
    Earlier this year when grazing legislation was being considered by 
this Subcommittee, I had the opportunity to be out here with my son 
T.J.--you may remember that, Mr. Chairman. One day when we were in your 
office talking with you, T.J., who was 10 years old at the time, asked 
you, ``Congressman Hansen, what is the future of grazing livestock on 
public lands?'' Your answer was ``I don't know.'' This is instability.
    As a rancher and as a father, I would like to be able to tell my 
sons that they will be able to continue our family's tradition of 
ranching, and feel good about it. As things are, I don't feel good 
about it, because I don't know if it's true. My family has been 
ranching for six generations. We have taken good care of the land, and 
in return it has given us the ability to make a living doing what we 
love to do: ranching. It is really hard for me to remain optimistic 
about the future of my fam-

ily's ranch today. Some days I even wonder who in their right mind 
would ever want their children to ranch on Federal lands. This is 
really a shame because, regardless of the distorted half-truths and 
outright lies about the effects of grazing on public lands that some 
interest groups continue to propound, ranchers really are stewards of 
the land. They have no choice: abusing the resource only hurts their 
ability to make a living from it.
    In my 25 years of dealing with the Bureau of Land Management, I am 
finding that more and more frequently, land management decisions are 
being made based on factors not at all related to sound land management 
practices that are being caused by the application of other laws.
    Right now, western livestock producers everywhere are anxiously 
awaiting the appellate decision in a 1996 court case called Oregon 
Natural Desert Association v. Chief Jack Ward Thomas, better known as 
the Camp Creek case. In that case, an Oregon Federal District Court 
judge held that pollution caused by cattle grazing constitutes a 
``discharge into navigable waters'' under section 401 of the Clean 
Water Act, and therefore the Forest Service was required to get a State 
certification before issuing a grazing permit.
    For a while, no one was sure if the government was even going to 
appeal the original decision. EPA did not want to appeal, the Forest 
Service did want to, and fortunately the Solicitor General sided with 
the Forest Service. Now, however, the case is being considered by the 
9th Circuit. If the 9th Circuit upholds the original decision, this 
will mean, in essence, that livestock grazing is equivalent to a water 
treatment plant for purposes of section 401. It would also mean that 
the Environmental Protection Agency would become yet another partner 
agency with BLM to ``help'' manage livestock grazing. This is 
instability.
    Likewise, the Clean Air Act is having adverse effects on proper 
land management. In some instances, burning of rangeland is necessary 
for proper management of some types of grasses and shrubs. In many 
areas this burning has not occurred for several decades, and now that 
the Department of the Interior and the U.S. Forest Service have adopted 
policies to improve the approval process for prescribed burns, the 
Environmental Protection Agency is limiting these necessary management 
activities, citing Clean Air Concerns. With the President recently 
announcing new particulate matter regulations, I can only guess that 
prescribed burning will become a thing of the past at some point. When 
that happens, the range condition in areas where burning is appropriate 
will deteriorate, which will lead to reductions in AUM's available for 
grazing. This is instability.
    Finally, I want to touch on how the National Historic Preservation 
Act creates instability. As I understand it, this Act is basically 
being implemented on public lands through Memoranda of Agreement 
between the States and BLM or the Forest Service. But, there are some 
inconsistencies between these agreements, which results in ranchers in 
different states being subjected to different standards, even though it 
is still Federal land. In Montana, for instance, areas that have been 
grazed for the past 100 years really aren't being adversely affected by 
archaeological restrictions. This seems to be based on common sense: if 
an archaeological site has been subjected to grazing for the past 100 
years, any damage that could have been done, has been done, and it 
doesn't make any sense to put restrictions on it now. In California, 
however, the MOU is resulting in restrictions on areas containing 
``lithic scatter'' (basically pieces of stones leftover from making 
arrowheads), even though these areas have also been grazed for many, 
many years. Having different standards on Federal lands in different 
states does not add to stability.
    Considered one at a time, most of the negative effects from the 
laws that I have described today could probably be manageable. However, 
these negative impacts are cumulative: by the time a rancher is facing 
requirements from 3, 4, 5, or 6 different statutes, his ability to 
graze livestock on Federal land is uncertain at best. The only thing 
that is certain is that he will spend more time trying to comply with 
regulatory requirements than he will spend actually ranching. This same 
situation is also faced by BLM: agency employees spend more time 
consulting with other agencies on how to administer those agencies' 
laws and dealing with paperwork or appeals than they do actually doing 
the on-the-ground monitoring to safeguard the resource.
    I know that it is unrealistic to think that these laws will ever be 
quickly changed to alleviate our problems. However, because most of the 
problems caused by these laws today are because of how the agencies are 
administering them, I don't think it would be unreasonable at all for 
the agencies to at least be able to work together in a manner that 
would allow both BLM and ranchers to do our jobs, rather than fill out 
papers and go to meetings. If the goal of BLM and ranchers is to 
protect, preserve, and improve the resource, which I think it is, then 
this kind of change is certainly needed.
    Once again, thank you for the opportunity to appear here today.

        Statement of Wesley Neil Bruton, San Antonio, New Mexico
    Chairman Hansen and members of the Committee, first let me thank 
you for the opportunity to speak before you today. My name is Wesley 
Neil Bruton and I am from San Antonio, New Mexico, where I live with my 
wife, daughter and son. We are part of a family agricultural operation 
that has been in Central New Mexico since 1880 when my great 
grandfather moved there from South Texas.
    With my parents, we ranch and farm on private, state and Federal 
lands. In the West, you acquire land and the public permits that go 
with it, by inheriting it or purchasing it. As a family, we built the 
operation purchasing private land along with state and Federal leases. 
I am proud that my father is here with me today. It is our intention to 
pass what we have on to my daughter, Brittany, who turns 12 today, and 
Wesley, who is 4.
    We earn everything we have. We do not have Federal insurance or 
retirement plans. We do not get paid vacations. We pay our taxes and 
we've never been on welfare.
    Our operation includes Bureau of Land Management (BLM) land as well 
as Bureau of Reclamation lands that are administered by the BLM. In 
many cases, these lands are co-mingled with state and/or private 
property, with no fencing.
    Frankly, Dad and I would rather be home today, doing what we think 
we do best, caring for our animals and our land. Actions of the Federal 
Government have made that impossible.
    We have heard the stories about how the government, our government, 
is taking away citizens rights. We thought those things happened to 
other people. We were wrong and we should have known better. It has 
happened to the family before.
    The Federal Government took land from my grandparents back in 1941 
for White Sands Missile Range. At that time, it was patriotism that was 
the standard bearer for land grabs. We are a patriotic people. My 
father served in the Korean conflict and we do believe in fighting for 
what is ours and what is right.
    We are here today to tell you about what the Federal Government has 
done to us in 1997 in the name of a bird. We learned this spring that 
Federal employees or folks contracted by the Federal Government 
trespassed on our PRIVATE land in search of endangered species, 
specifically the Southwestern Willow Flycatcher.
    They then used the information they obtained while trespassing on 
our land, our private land, to remove us from one of our Federal land 
leases. In that area, we run 175 mother cows. The spring and summer of 
the year is when the forage is at its best, and it is also the time 
when most of the cows are calving, lactating and breeding back.
    Based on the information gained through illegal entry, the Federal 
Government issued a decision to eliminate grazing in the area for 
three-and-a-half months during the prime portion of the year. That was 
bad enough.
    However, the decision was a ``full force and effect'' decision 
which requires IMMEDIATE compliance. That immediate compliance in our 
case was six (6) days. We had only 6 days to remove 175 cows, along 
with many calves of varying ages and sizes. The river was high and 
flooding and the brush was all in full foliage, making it impossible to 
use horses or any other method of gathering the cattle. We had to go in 
on foot and in small boats. We ended up hauling one heavily pregnant 
cow out in a boat.
    We generally gather this area in the fall, when there is little 
foliage and bait the cattle out with feed. Then it usually takes us 3 
to 4 months to get the job done.
    In addition to getting the cattle out of the river bottom, we had 
to find other pasture for them. That was no easy chore and was 
extremely expensive because most of our area was just recovering from a 
drought. The pasture we found was over 150 miles away. In all we spent 
more than $32,000 in additional pasture rent, labor and trucking to 
move the animals.
    If we had not complied with the removal order within the 6 days 
allotted, we would have been guilty of willful trespass on Federal 
property which could have resulted in the impoundment of our cattle as 
well as large fines. In addition, all of our other permits on Federal 
lands would have been in jeopardy.
    With a full force and effect decision, any appeal, which must 
initially be done through the administrative process, cannot take place 
until after compliance with the order. We did try to use the courts to 
at least get more time to remove the cattle. However, with only 6 days 
to comply, by the time we got a lawyer hired and the proper paperwork 
filed, the time was up.
    We were denied the stay near the end of July, better than 90 days 
after we had to remove the cattle. We have filed an appeal 
administratively, and have yet to hear anything about it.
    The driving force behind this nightmare is the Endangered Species 
Act which caused the U.S. Fish & Wildlife Service to issue a notice to 
the Bureau of Reclamation that grazing could result in a ``take'' of 
the Southwestern Willow Flycatcher. A ``take'' of an endangered species 
can result in criminal action as well as stiff fines.
    The Southwestern Willow Flycatcher is a bird listed in March 1997. 
It is a subspecies that can only be identified by the way it sings. If 
you haven't heard one, you won't know one.
    It amazes me that Federal employees can identify such a creature by 
sound alone, but they do not have the ability to identify property 
lines between Federal and private land on a map.
    Since this mess has started, we learned that inventories were done 
on our PRIVATE land in 1994, 1995 and 1996 for the Southwestern Willow 
Flycatcher. In 1996, cowbirds were also trapped on our private land 
without our knowledge or permission. The primary concern with grazing 
in areas where there may be willow flycatchers is the cowbird. It is 
believed, but not scientifically proven, that cows attract cowbirds. 
The cowbird is also present where there are several other forms of 
livestock.
    In any event, we are told that cowbirds lay their eggs in 
flycatcher nests. The flycatchers then end up raising baby cowbirds 
instead of their own. There is also some concern that cattle knock down 
nests, but most of the low nests are over the water and our cows, at 
least, are not big swimmers.
    The last 5 months have been a nightmare that I would not have 
believed could have happened to me or anyone else in this United 
States. And, it appears that it has only just begun. We have been 
unable to get any commitment from the Bureau of Reclamation about our 
future in utilizing the grazing land. There is a land use plan in the 
works, but grazing has yet to be addressed.
    At the present time there is no stability in our agricultural 
operation. We don't know where or if we will be able to use the land we 
have paid to use and have maintained for years. Our private land now 
has no resale value. Who in their right mind would want to get involved 
in this mess?
    We were allowed to go back on the area with the cattle on August 1, 
1997, but we do not know when we will be forced to remove them again. 
We have been told that we will be allowed additional AUMs this winter 
to make up for those lost. But, our livestock are unable to benefit 
from the prime nutritional value in the forage that was there in the 
spring and summer because we were forced to remove them. And, you 
cannot make up for the nutritional value lost to the cattle at a 
critical time in their life cycle.
    We want to leave this ranch to our children, but who would wish 
such a thing on their kids?
    I know you are here today to discuss the reduction of use on BLM 
lands. From my perspective, until and unless the Endangered Species Act 
is modified, future use of BLM lands will continue to be a target of 
the Fish & Wildlife Service and citizens like my family and I are in 
serious trouble.
    There is no avenue in the Endangered Species Act for individuals to 
have any meaningful input. Science means nothing. Economic impact means 
nothing. Custom and culture mean nothing. The Fish & Wildlife Service 
is a kingdom of its own and is a predator to Federal funding. Other 
Federal agencies are being forced to spend millions on endangered 
species consultation and assessment. There are no checks and balances.
    Private citizens like us cannot constantly patrol their property to 
keep Federal intruders from trespassing. And few of us have the money 
to hire lawyers to protect our rights. That's why we elected folks like 
you.
    In 3 years of Federal research, we were never once contacted about 
the presence of the willow flycatcher on our property. Our local 
government was never consulted and there has never been any economic or 
cultural analysis done on the area in relation to this issue.
    Common sense indicates that this would have been an ideal year to 
study the true affects of grazing on the willow flycatcher. The Fish & 
Wildlife Service was trapping cowbirds, we had out-of-bank flooding on 
the river, and the cows were happy. Instead, we were put through hell. 
Not only have we been put through a great deal of personal stress and 
expense, but our own tax dollars have been paying for the oppression 
upon us.
    I thank you again for your time and consideration. My family 
certainly hopes and prays that you folks here in Washington can see 
what is being done to those of us in the country before too many more 
of us are put out of business.


[GRAPHIC] [TIFF OMITTED] T5299.001

[GRAPHIC] [TIFF OMITTED] T5299.002

[GRAPHIC] [TIFF OMITTED] T5299.003

[GRAPHIC] [TIFF OMITTED] T5299.004

[GRAPHIC] [TIFF OMITTED] T5299.005

[GRAPHIC] [TIFF OMITTED] T5299.006

[GRAPHIC] [TIFF OMITTED] T5299.007

[GRAPHIC] [TIFF OMITTED] T5299.008

[GRAPHIC] [TIFF OMITTED] T5299.009

[GRAPHIC] [TIFF OMITTED] T5299.010

[GRAPHIC] [TIFF OMITTED] T5299.011

[GRAPHIC] [TIFF OMITTED] T5299.012

[GRAPHIC] [TIFF OMITTED] T5299.013

[GRAPHIC] [TIFF OMITTED] T5299.014

[GRAPHIC] [TIFF OMITTED] T5299.015

[GRAPHIC] [TIFF OMITTED] T5299.016

[GRAPHIC] [TIFF OMITTED] T5299.017

[GRAPHIC] [TIFF OMITTED] T5299.018

[GRAPHIC] [TIFF OMITTED] T5299.019

[GRAPHIC] [TIFF OMITTED] T5299.020

[GRAPHIC] [TIFF OMITTED] T5299.021

[GRAPHIC] [TIFF OMITTED] T5299.022

[GRAPHIC] [TIFF OMITTED] T5299.023

[GRAPHIC] [TIFF OMITTED] T5299.024

[GRAPHIC] [TIFF OMITTED] T5299.025

[GRAPHIC] [TIFF OMITTED] T5299.026

[GRAPHIC] [TIFF OMITTED] T5299.027

[GRAPHIC] [TIFF OMITTED] T5299.028

[GRAPHIC] [TIFF OMITTED] T5299.029

[GRAPHIC] [TIFF OMITTED] T5299.030

[GRAPHIC] [TIFF OMITTED] T5299.031

[GRAPHIC] [TIFF OMITTED] T5299.032

[GRAPHIC] [TIFF OMITTED] T5299.033

[GRAPHIC] [TIFF OMITTED] T5299.034

[GRAPHIC] [TIFF OMITTED] T5299.035

[GRAPHIC] [TIFF OMITTED] T5299.036

[GRAPHIC] [TIFF OMITTED] T5299.037

[GRAPHIC] [TIFF OMITTED] T5299.038

[GRAPHIC] [TIFF OMITTED] T5299.039

[GRAPHIC] [TIFF OMITTED] T5299.040

[GRAPHIC] [TIFF OMITTED] T5299.041

[GRAPHIC] [TIFF OMITTED] T5299.042

[GRAPHIC] [TIFF OMITTED] T5299.043

[GRAPHIC] [TIFF OMITTED] T5299.044

[GRAPHIC] [TIFF OMITTED] T5299.045

[GRAPHIC] [TIFF OMITTED] T5299.046

[GRAPHIC] [TIFF OMITTED] T5299.047

[GRAPHIC] [TIFF OMITTED] T5299.048

[GRAPHIC] [TIFF OMITTED] T5299.049

[GRAPHIC] [TIFF OMITTED] T5299.050

[GRAPHIC] [TIFF OMITTED] T5299.051

[GRAPHIC] [TIFF OMITTED] T5299.052

[GRAPHIC] [TIFF OMITTED] T5299.053

[GRAPHIC] [TIFF OMITTED] T5299.054

[GRAPHIC] [TIFF OMITTED] T5299.055

[GRAPHIC] [TIFF OMITTED] T5299.056

[GRAPHIC] [TIFF OMITTED] T5299.057

[GRAPHIC] [TIFF OMITTED] T5299.058

[GRAPHIC] [TIFF OMITTED] T5299.059

[GRAPHIC] [TIFF OMITTED] T5299.060

[GRAPHIC] [TIFF OMITTED] T5299.061

[GRAPHIC] [TIFF OMITTED] T5299.062

[GRAPHIC] [TIFF OMITTED] T5299.063

[GRAPHIC] [TIFF OMITTED] T5299.064

[GRAPHIC] [TIFF OMITTED] T5299.065

[GRAPHIC] [TIFF OMITTED] T5299.066

[GRAPHIC] [TIFF OMITTED] T5299.067

[GRAPHIC] [TIFF OMITTED] T5299.068

[GRAPHIC] [TIFF OMITTED] T5299.069

[GRAPHIC] [TIFF OMITTED] T5299.070

[GRAPHIC] [TIFF OMITTED] T5299.071

[GRAPHIC] [TIFF OMITTED] T5299.072

[GRAPHIC] [TIFF OMITTED] T5299.073

[GRAPHIC] [TIFF OMITTED] T5299.074

[GRAPHIC] [TIFF OMITTED] T5299.075

[GRAPHIC] [TIFF OMITTED] T5299.076

[GRAPHIC] [TIFF OMITTED] T5299.077

[GRAPHIC] [TIFF OMITTED] T5299.078

[GRAPHIC] [TIFF OMITTED] T5299.079

[GRAPHIC] [TIFF OMITTED] T5299.080

[GRAPHIC] [TIFF OMITTED] T5299.081

[GRAPHIC] [TIFF OMITTED] T5299.082

[GRAPHIC] [TIFF OMITTED] T5299.083

[GRAPHIC] [TIFF OMITTED] T5299.084

[GRAPHIC] [TIFF OMITTED] T5299.085

[GRAPHIC] [TIFF OMITTED] T5299.086

[GRAPHIC] [TIFF OMITTED] T5299.087

[GRAPHIC] [TIFF OMITTED] T5299.088

[GRAPHIC] [TIFF OMITTED] T5299.089

[GRAPHIC] [TIFF OMITTED] T5299.090

[GRAPHIC] [TIFF OMITTED] T5299.091

[GRAPHIC] [TIFF OMITTED] T5299.092

[GRAPHIC] [TIFF OMITTED] T5299.093

[GRAPHIC] [TIFF OMITTED] T5299.094

[GRAPHIC] [TIFF OMITTED] T5299.095


</pre></body></html>
